<html>
<title> - BUILDING ON THE SUCCESS OF 35 YEARS OF TITLE IX</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        BUILDING ON THE SUCCESS 
                        OF 35 YEARS OF TITLE IX 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 19, 2007

                               __________

                           Serial No. 110-48

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                     U.S. GOVERNMENT PRINTING OFFICE

35-961 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001






























                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS


                    RUBEN HINOJOSA, Texas, Chairman

George Miller, California            Ric Keller, Florida,
John F. Tierney, Massachusetts         Ranking Minority Member
David Wu, Oregon                     Thomas E. Petri, Wisconsin
Timothy H. Bishop, New York          Cathy McMorris Rodgers, Washington
Jason Altmire, Pennsylvania          Virginia Foxx, North Carolina
John A. Yarmuth, Kentucky            John R. ``Randy'' Kuhl, Jr., New 
Joe Courtney, Connecticut                York
Robert E. Andrews, New Jersey        Timothy Walberg, Michigan
Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware
Susan A. Davis, California           Mark E. Souder, Indiana
Danny K. Davis, Illinois             Vernon J. Ehlers, Michigan
Mazie Hirono, Hawaii                 Judy Biggert, Illinois






















































                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 19, 2007....................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    83
    Hinojosa, Hon. Ruben, Chairman, Subcommittee on Higher 
      Education, Lifelong Learning, and Competitiveness..........     1
        Prepared statement of....................................     2
        Prepared statement of Joyce M. Roche, president and CEO, 
          Girls Incorporated.....................................    77
    Keller, Hon. Ric, Ranking Minority Member, Subcommittee on 
      Higher Education, Lifelong Learning, and Competitiveness...     3
        Prepared statement of....................................     3
    Scott, Hon. Robert C. ``Bobby,'' a Representative in Congress 
      from the State of Virginia, questions for the record.......     4

Statement of Witnesses:
    Greenberger, Marcia D., co-president, National Women's Law 
      Center.....................................................     7
        Prepared statement of....................................     8
        Internet address to three amicus briefs..................    14
    Layne, Margaret Edith, P.E., past president of the Society of 
      Women Engineers............................................    55
        Prepared statement of....................................    57
    Maatz, Lisa M., director of public policy and government 
      relations, American Association of University Women; 
      interim director, AAUW Legal Advocacy Fund.................    14
        Prepared statement of....................................    16
        Additional materials submitted...........................    21
    Mowatt, Jack, commissioner, Maryland-DC Amateur Softball 
      Association................................................    44
        Prepared statement of....................................    46
        Additional materials submitted: ``Commitment to Resolve''    48
    Pearson, Eric, chairman, College Sports Council..............    60
        Prepared statement of....................................    62
    Simon, Rita J., university professor, American University....    64
        Prepared statement of....................................    65


                        BUILDING ON THE SUCCESS
                        OF 35 YEARS OF TITLE IX

                              ----------                              


                         Tuesday, June 19, 2007

                     U.S. House of Representatives

                   Subcommittee on Higher Education,

                 Lifelong Learning, and Competitiveness

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:10 a.m., in 
room 2175, Rayburn House Office Building, Hon. Ruben Hinojosa 
[chairman of the subcommittee] presiding.
    Present: Representatives Hinojosa, Tierney, Bishop of New 
York, Scott, Davis of California, Hirono, Keller, Petri, Foxx, 
Kuhl, Walberg, and McKeon.
    Staff Present: Tylease Alli, Hearing Clerk; Lamont Ivey, 
Staff Assistant, Education; Danielle Lee, Press/Outreach 
Assistant; Ricardo Martinez, Policy Advisor for the 
Subcommittee on Higher Education, Lifelong Learning, and 
Competitiveness; Lisette Partelow, Staff Assistant, Education; 
Mark Zuckerman, Staff Director; Robert Borden, Minority General 
Counsel; Kathryn Bruns, Minority Legislative Assistant; Kirsten 
Duncan, Minority Professional Staff Member; Amy Raaf Jones, 
Minority Professional Staff Member; Victor Klatt, Minority 
Staff Director; Chad Miller, Minority Professional Staff; Susan 
Ross, Minority Director of Education and Human Services Policy; 
Linda Stevens, Minority Chief Clerk/Assistant to the General 
Counsel; and Sally Stroup, Minority Deputy Staff Director.
    Chairman Hinojosa. A quorum is present. The hearing of the 
subcommittee will come to order. Pursuant to Committee rule 
XII(a), any member may submit an opening statement in writing 
which will be made part of the permanent record.
    I now recognize myself and will be followed by the ranking 
member for an opening statement. In 1972, Congresswoman Patsy 
Mink of Hawaii introduced a simple legislative proposal stating 
that no person in the United States shall on the basis of sex 
be excluded from participation in, be denied the benefits of, 
or be subjected to discrimination under any education program 
or activity receiving Federal financial assistance.
    With the passage of Title IX, now known as the Patsy 
Takemoto Mink Equal Opportunity and Education Act, a new era of 
opportunity was ushered in for women and girls in America. 
Title IX ended the days of women being denied admission into 
academic programs based on their gender. That year, in 1972, 
just as Title IX was enacted, women earned merely 28 percent of 
the bachelors degrees in the fields of science, technology, 
engineering and math. They are known as the STEM fields. Today, 
women earn 49 percent of the bachelors degrees in these fields.
    Title IX shattered the myth that women and girls were not 
interested in competing in interscholastic athletics. Since the 
enactment of Title IX, the number of women participating in 
intercollegiate athletics has increased fivefold. The number of 
female high school athletes has grown almost 900 percent. As 
athletic opportunities for women have increased, their interest 
has soared. Our professional women's sports leagues are the 
byproduct of the doors that were opened by Title IX.
    Despite these successes we still have work to do to achieve 
the promise of full equality and freedom from discrimination 
that is at the heart of Title IX. There are still gaps in 
support for women's athletics, gaps in participation in various 
disciplines in the STEM fields, and disparities in career and 
technical education programs.
    More critically, there is still much to be done to ensure 
that our educational institutions are free from sexual 
harassment. We have seen ongoing efforts to undermine the 
protection of Title IX through regulation or through 
litigation. Over the course of the last 35 years, we have 
learned that we can never take equal opportunity for granted.
    As we celebrate the success of Title IX, we also must look 
to the future and the work that remains to be done. In closing, 
I would like to thank our witnesses for joining us today. We 
are eager to hear your views and recommendations about how 
Title IX can strengthen opportunities for the next generation 
of women and girls in our schools and on our college campuses 
throughout the Nation. Thank you for joining us today.
    And I would now like to yield to my colleague from Florida, 
the ranking member, Mr. Ric Keller, for his opening statement.

 Prepared Statement of Hon. Reuben Hinojosa, Chairman, Subcommittee on 
        Higher Education, Lifelong Learning, and Competitiveness

    In 1972, Congresswoman Patsy Mink of Hawaii introduced a simple 
legislative proposal stating that ``No person in the United States 
shall, on the basis of sex, be excluded from participation in, be 
denied the benefits of or be subjected to discrimination under any 
education program or activity receiving Federal Financial assistance.''
    With the passage of Title IX, now known as the Patsy Takemoto Mink 
Equal Opportunity in Education Act, a new era of opportunity was 
ushered in for women and girls in America.
    Title IX ended the days of women being denied admission into 
academic programs based on their gender.
    In 1972, just as Title IX was enacted, women earned merely 28 
percent of the bachelor's degrees in the fields of science, technology, 
engineering, and mathematics--better known as the STEM fields. Today, 
women earn 49.2 percent of the bachelor's degrees in these fields.
    Title IX shattered the myth that women and girls were not 
interested in competing in interscholastic athletics.
    Since the enactment of Title IX, the number of women participating 
in intercollegiate athletics has increased five-fold. The number of 
female high school athletes has grown by almost 900 percent.
    As athletic opportunities for women have increased, their interest 
has soared. Our professional women's sports leagues are the by-product 
of the doors that were opened by Title IX.
    Despite theses successes, we still have work to do to achieve the 
promise of full equality and freedom from discrimination that is at the 
heart of Title IX. There are still gaps in support for women's 
athletics, gaps in participation in various disciplines in the STEM 
fields, and disparities in career and technical education programs. 
More critically, there is still much to be done to ensure that our 
educational institutions are free from sexual harassment.
    We have seen on-going efforts to undermine the protections of Title 
IX through regulation or through litigation. Over the course of the 
last 35 years, we have learned that we can never take equal opportunity 
for granted.
    As we celebrate the success of Title IX, we also must look to the 
future and the work that remains to be done. I would like to thank our 
witnesses for joining us today. We are eager to hear your views and 
recommendations about how Title IX can strengthen opportunities for the 
next generation of women and girls in our schools and on our campuses 
throughout the nation.
    Thank you for joining us today. I would now like to yield to my 
colleague from Florida, the ranking member, Mr. Ric Keller for his 
opening statement.
                                 ______
                                 
    Mr. Keller. Thank you very much, Mr. Chairman. I join with 
you in welcoming our outstanding witnesses today. And I want to 
welcome everyone to today's hearing celebrating 35 years of 
Title IX. In addition to this hearing yesterday, the House 
voted to pass a resolution offered by Representative Hirono to 
honor the 35th anniversary of this law. Today we are here to 
discuss the success of Title IX and to review the issues that 
have emerged since the law was enacted back in 1972. Title IX 
simply states that, quote, no person in the United States shall 
on the basis of sex be excluded from participation in, be 
denied the benefits of or be subject to discrimination under 
any education program or activity receiving Federal financial 
assistance, closed quote.
    While Title IX affects many aspects of education from 
admissions to employment, most people associate it with school 
athletics. Institutions often struggle to comply with Title IX 
in this arena. While there are three different ways to comply 
with the law, most institutions attempt to comply with what is 
called the proportionality prong. I'm sure we will hear more 
about that today. Some institutions also point to Title IX when 
examining the number of women in areas like math and science. I 
look forward to today's discussion on the successes and 
challenges of Title IX, and I thank today's panel of witnesses 
for being here to share their views and experiences.
    I yield back the balance of my time.

Prepared Statement of Hon. Ric Keller, Ranking Member, Subcommittee on 
        Higher Education, Lifelong Learning, and Competitiveness

    Good morning, and welcome to today's hearing celebrating 35 years 
of Title IX. In addition to this hearing, yesterday the House voted to 
pass a resolution offered by Representative Hirono to honor the 35th 
anniversary of this law. Today we are here to discuss the success of 
Title IX and to review the issues that have emerged since this law was 
enacted back in 1972.
    Title IX states simply that ``No person in the United States shall 
on the basis of sex, be excluded from participation in, be denied the 
benefits of, or be subject to discrimination under any education 
program or activity receiving federal financial assistance.''
    While Title IX affects many aspects of education from admissions to 
employment, most people associate it with school athletics. 
Institutions often struggle to comply with Title IX in this arena. 
While there are three different ways to comply with the law, most 
institutions attempt to comply with the proportionality prong. I am 
sure we will hear more about that today. Some institutions also point 
to Title IX when examining the number of women in areas like math and 
science.
    I look forward to today's discussion on the successes and 
challenges of Title IX, and I thank today's panel of witnesses for 
being here to share their views and experiences. I yield back.
                                 ______
                                 
    Chairman Hinojosa. Without objection, all members will have 
14 days to submit additional materials or questions for the 
hearing record. Now I would like to give the introductions of 
each and every one of our witnesses, and then we will begin 
hearing from the first one.
    [Questions submitted by Mr. Scott to Ms. Greenberger and 
Ms. Maatz follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Hinojosa. Marcia Greenberger is the founder and 
co-president of the National Women's Law Center established 
nearly 35 years ago in Washington, D.C. She has been a leader 
in developing strategies to secure the successful passage of 
legislation protecting women and counsel in landmark litigation 
establishing new legal precedents for women. And she is the 
author of numerous articles. She is nationally renowned with 
awards too numerous to delineate in this brief introduction. 
Marcia received her JD from the university of Pennsylvania in 
1970. Has also worked in private practice and, since 1972, has 
dedicated herself to the center.
    Lisa Maatz is the director of public policy and government 
relations for the American Association of University Women. She 
came to her position from the National Organization of Women's 
Legal Defense Fund. And before that, she was legislative aid to 
Congresswomen Carolyn Maloney of New York. Lisa has also 
received numerous awards and was recently a mayoral appointment 
to the Washington, D.C., Commission on Women. She is a graduate 
of Ohio University and holds two masters degrees from Ohio 
State University. At the pleasure of attending and having a 
field hearing on your university campus, I was very impressed.
    Margaret Edith ``Peggy'' Layne is currently the Advance 
project director at Virginia Tech University in Blacksburg, 
Virginia. The National Science Foundation sponsored program is 
designed to increase the number of women faculty in science and 
in engineering. She has been a Director of Diversity for the 
National Academy of Engineering, as well as a fellow on the 
staff of Senator Bob Graham. Peggy has degrees in environmental 
and water resources engineering from Vanderbilt University and 
the University of North Carolina School for Public Health. She 
is a registered professional engineer.
    Jack Mowatt was born in Washington, D.C., went to high 
school in Maryland and then spent 8 years in the Air Force. 
Jack is a past president of the Maryland Fire Chiefs 
Association. And he retired from the Federal Aviation 
Administration after serving for 40 years. Jack was appointed 
softball commissioner in 1982, and in 2007, he is slated to be 
inducted into the American Softball Association, the National 
Hall of Fame in Louisville, Kentucky. Congratulations for the 
honor that will be bestowed upon you.
    Eric Pearson is chairman of the Board of the College Sports 
Council, a national coalition of coaches, athletes, parents and 
sports alumni founded in the year 2002. The council is 
dedicated to preventing the elimination of college sports 
teams. He has served as the chairman of the Ivy League 
Wrestling Coaches Association. Eric has been a spokesman for 
the council's interests on various national networks, and he is 
a graduate of Princeton University.
    Dr. Rita Simon, a professor at American University, whose 
research interests and primary areas of concentration include, 
among others, law and society. The jury system, the immigration 
issues, are really society and women's issues. She recently 
published her 50th book on these many issues. She is currently 
the editor of Gender Issues.
    And we welcome you too, Rita.
    Again, I welcome, together with all the Members of 
Congress, all of you as our witnesses. For those of you who 
have not testified before this subcommittee, please let me 
explain our lighting system and the 5-minute rule. Everyone, 
including members, is limited to 5 minutes of presentation or 
questioning. The green light is illuminated when you begin to 
speak. When you see the yellow light, it means you have 1 
minute remaining and that you should bring your comments to a 
close. When you see the red light, it means your time has 
expired and you need to conclude your testimony. Please be 
certain as you testify to turn it on and speak into the 
microphone in front of you. A record is being kept, and we will 
certainly be very pleased to share what happens today with all 
the Members of Congress as we proceed. We will now hear from 
our first witness.
    Ms. Greenberger, would you please start?

  STATEMENT OF MARCIA D. GREENBERGER, CO-PRESIDENT, NATIONAL 
                       WOMEN'S LAW CENTER

    Ms. Greenberger. Thank you, Mr. Chairman.
    I am Marcia Greenberger, co-president of the National 
Women's Law Center. And thank you very much for the invitation 
to appear today to mark the 35th anniversary of Title IX. And I 
appreciate that my full statement will be part of the record.
    The National Women's Law Center was founded in 1972, the 
year that Title IX was enacted. And enforcement of Title IX, 
the realization of its great promise, has been a major priority 
of the center's ever since. And I am proud to say that 
Congresswoman Patsy Mink four times served on the board of the 
National Women's Law Center.
    Women have certainly made significant and laudable progress 
in education in the last 35 years, as, Mr. Chairman, you have 
identified. But the job is not yet finished. The playing field 
is not yet level. Much remains to be done to ensure that women 
have true equal access and true equal opportunity in all areas 
of education, including athletics. And it is the area of 
athletics which will be the focus of my testimony today, 
although the National Women's Law Center is concerned and works 
on all of the facets of educational opportunity that Title IX 
covers.
    The continuing support and need for Title IX is underscored 
by the results of a national survey that the center is 
releasing today. Over eight in ten adults, actually 82 percent, 
support Title IX. And this support crosses the political 
spectrum: 86 percent of Democrats; 78 percent of Republicans; 
78 percent of Independents favor the law.
    And the survey dramatically demonstrates as well that 
discrimination against young women remains alive and well on 
our Nation's playing fields. An astounding 22 percent of the 
survey respondents, a sample that represents more than actually 
50 million adults, if you apply it across the population, were 
themselves personally aware of recent situations in which 
girls' sports teams were treated less favorably than boys' 
teams. It is hardly surprising, therefore, that 88 percent of 
survey respondents support girls or their parents taking action 
to correct situations in which girls' teams are treated 
inequitably. And this support, too, is consistent across 
genders and political affiliation. But only 40 percent of 
respondents knew what to do to enforce the law.
    With the public largely ill-equipped to enforce Title IX on 
its own, the center also undertook and is releasing today a 
report analyzing the results of its just concluded examination 
of enforcement efforts by the Department of Education's Office 
for Civil Rights over the last 5 years and the nature of the 
athletic complaints that it has received. This report, 
``Barriers to Fair Play,'' shows, by the complaints filed and 
the relief secured, that 35 years after the enactment of Title 
IX women are still getting fewer opportunities than males to 
participate in sports and that even when schools give girls a 
chance to play, too often the opportunity comes with second-
rate facilities, equipment, coaching, publicity and other 
services.
    It is striking to see how many complaints involve high 
schools. And the Women's Sports Foundation recently released a 
report documenting that young women are short-changed in 
intercollegiate sports as well.
    The center's report also documents that the Office for 
Civil Rights is not doing its job as it should. It is the 
Office for Civil Rights that has the chief responsibility for 
enforcing Title IX and making sure that our taxpayer dollars 
are spent by educational institutions in a fair and equitable 
way. They are, the Office for Civil Rights, is supposed to be 
conducting their own reviews, compliance reviews, of federally 
funded schools across the country, in addition to investigating 
complaints of discrimination that the Office for Civil Rights 
receives. But as the center's investigative report shows, 
during the last 5 years, the Office for Civil Rights initiated 
only one compliance review of a school's athletics program. And 
this is really an abdication, a serious abdication of OCR's 
enforcement responsibilities.
    Because OCR enforcement efforts have fallen so short, 
ordinary people must shoulder the burden themselves. And you 
will hear from one of our heroes, Mr. Mowatt, who has done that 
very thing. We need more people who will be able to vindicate 
their own rights, and, as a result, the center is issuing, 
``Breaking Down Barriers,'' also today, a new report, which we 
prepared with DLA Piper law firm to explain to advocates how to 
vindicate those rights.
    We call on Congress, however, to step up also to help with 
the enforcement of Title IX. First of all, to engage in 
oversight responsibilities with the Office for Civil Rights, to 
ensure that it is doing its job, which we think our report 
documents it is not doing as it should. Second, Congress must 
pass the High School Athletics Accountability Act that would 
require high schools to provide the gender breakdown of their 
treatment of sports teams, their support for it, to shine that 
spotlight on high school athletics as there is a report now 
available for intercollegiate athletic participation and 
support. And, finally, Congress must secure nullification of 
the so-called additional clarification that the Department of 
Education issued late on a Friday afternoon in March 2005 with 
no notice or opportunity for public comment that cuts back 
substantially and dramatically on Title IX's interpretation.
    [The statement of Ms. Greenberger follows:]

  Prepared Statement of Marcia D. Greenberger, Co-President, National 
                           Women's Law Center

    I am Marcia Greenberger, Co-President of the National Women's Law 
Center. Thank you for the invitation to appear before you today to mark 
the 35th anniversary of enactment of Title IX of the Education 
Amendments of 1972 (Title IX), the bedrock federal law that bans sex 
discrimination in federally funded education programs and activities. 
On this anniversary, there is much to celebrate; women have made 
significant progress in education in the last three and one half 
decades. But the job is not yet finished and the playing field is not 
yet level; much remains to be done to ensure that women have truly 
equal access and opportunities in all areas of education.
    The Center is a non-profit organization that has worked since 1972 
to advance and protect the legal rights of women and girls across the 
country. The Center focuses on major policy areas of importance to 
women and their families, including education, employment, health and 
reproductive rights, and economic security--with particular attention 
paid to the concerns of low-income women. Founded in the year that 
Title IX was passed, the Center has devoted much of its resources to 
ensuring that the promise of Title IX becomes a reality in all aspects 
of education.
    In recognition of this year's anniversary, the Center is today 
releasing a variety of informational and enforcement materials which I 
will discuss in my testimony. These include a national survey of 1,000 
likely voters that measures support for and understanding of Title IX; 
an analysis of the athletics complaints filed with, and compliance 
reviews conducted by, the Department of Education's Office for Civil 
Rights over the last five years; a legal manual that provides a step-
by-step approach to educate those subject to discrimination in 
athletics, as well as their advocates and attorneys, on how to assert a 
Title IX claim; and a website designed to enable the public to hold 
their schools accountable for compliance with the law. These resources 
are intended to help to realize Title IX's as yet unfulfilled promise 
of true gender equity in the classrooms and on the playing fields.
    Title IX was enacted in 1972 as a broad proscription against 
discrimination in any federally funded education program or activity. 
It states simply:
    No person in the United States shall, on the basis of sex, be 
excluded from participation in, be denied the benefits of or be 
subjected to discrimination under any education program or activity 
receiving Federal financial assistance.1
    Title IX applies to all public elementary and secondary schools and 
to virtually every college and university. It was intended to ensure 
equal opportunity for women and girls in all aspects of education--from 
access to higher education, to equal opportunities and fair treatment 
in elementary and secondary classrooms, to equal chances to participate 
in athletics programs. In passing Title IX, Congress recognized the 
critical role that education plays in promoting economic security for 
women and their families and mandated the broadest scope of protection 
against sex discrimination in school.
    Congress' vision has borne fruit. Thirty-five years after enactment 
of the law, we have more female doctors and lawyers. The number of 
girls going to college has exploded; young women today comprise over 
half of the undergraduate students in the country, an increase of more 
than 160% from their representation in 1972.2 The explicit exclusions 
of, and quotas for, women in education that were so prevalent 35 years 
ago have long since disappeared--or at least been driven underground.
    In athletics as well, the progress of women and girls has been 
transformative. When Congress passed Title IX in 1972, fewer than 
32,000 women competed in intercollegiate athletics.3 Women received 
only 2 percent of schools' athletics budgets, and athletic scholarships 
for women were nonexistent.4 Today, the number of college women 
participating in competitive athletics is now five times the pre-Title 
IX rate. In 2004-05, a record number of 166,728 women competed at the 
college level, representing 42% of college athletes nationwide.5
    Title IX has also had a tremendous impact on female athletic 
opportunities at the high school level. Before Title IX, fewer than 
300,000 high school girls played competitive sports.6 By 2005, the 
number had climbed to 2.95 million, an increase of almost 900%.7
    And Title IX has garnered overwhelming public support. The national 
survey the Center is releasing today confirms that more than eight in 
ten voters--or 82% of adults--support Title IX.8 In fact, support for 
the law is intense, with nearly two-thirds (65%) strongly supporting 
the law and fewer than one in ten (9%) strongly opposing it. This 
support crosses the political spectrum; 86% of Democratic voters and 
78% of Republican and independent voters favor the law.9
    Moreover, Americans are nearly unanimous in backing those who take 
action to redress discrimination. Eighty-eight percent of respondents 
to the survey support girls or their parents taking action to address 
situations in which girls' high school teams are being treated worse 
than the boys' teams. This support is consistent across genders and 
political affiliation.10
    But despite this progress, significant problems remain. Girls, like 
their male peers, are dropping out of high school at dangerously high 
rates. In fact, one in four girls overall, and nearly one in two 
African American, Hispanic, and Native American female students, fail 
to graduate with a diploma each year.11,12
    While girls in each racial and ethnic group fare better than boys 
of the same race or ethnicity, moreover, Black, Hispanic, and American 
Indian/Alaskan Native female students graduate at significantly lower 
rates than White and Asian-American males. And tellingly, the 
consequences for girls who fail to graduate from high school are 
profound and deeply disturbing. Female dropouts are at much greater 
risk than their male peers of being unemployed. They make significantly 
lower wages and are more likely to rely on public support programs to 
provide for their families.
    Another example of the pervasive barriers that remain can be found 
in career and technical education (CTE). The divide between boys and 
girls in CTE has barely narrowed since Congress passed Title IX 35 
years ago. Just as in the 1970s, high school girls are the vast 
majority of those who enroll in traditionally female courses, such as 
cosmetology and child care, while boys make up all but a tiny 
percentage of the students in traditionally male fields such as auto 
mechanics and construction and repair. This sex segregation in the 
nation's vocational classrooms--and the relegation of girls to 
traditionally female programs--has deep impact on the earning power and 
job prospects of the young women who graduate from these programs. 
Girls who take up traditionally female occupations can expect to earn 
half--or less--what they could make if they went into traditionally 
male fields like auto repair, welding, or engineering.13
    As my colleagues on the panel today will discuss, similar problems 
plague women in science, technology, engineering and math--the STEM 
disciplines. And as you will also hear, sexual harassment remains all 
too widespread, creating hostile educational environments for far too 
many young women at every level of education. All of these are areas in 
which Congress must act--to ensure that the strongest possible legal 
standards exist to protect the civil rights of young women; to mandate 
that the Department of Education and other Title IX enforcement 
agencies take the proactive and comprehensive steps necessary to 
enforce the law; and to ensure that Title IX's promise of true gender 
equity becomes a reality.
    For my testimony today, I would like to focus on Title IX's impact 
on athletics and the steps that still must be taken to create a level 
playing field for our nation's daughters.
I. Women and Girls Still Face Persistent Discrimination in Athletics
    Notwithstanding the extraordinary gains that women have made, 
female participation in intercollegiate sports remains below pre-Title 
IX male participation: while 170,384 men played college sports in 1971-
1972, only 166,728 women played college sports in 2004-05. 14 In 
addition, participation opportunities as well as resources for women's 
athletic programs continue to lag behind men's. Women receive only 43% 
of the opportunities to participate in college sports,15 even though 
they comprise 55% of today's undergraduates.16 In Division I, they 
receive only 45% of athletics scholarships, 37% of athletics operating 
expenses, and 32% of the dollars spent on recruiti17
    The persistence of discrimination is further illustrated by recent 
research. The survey being released by the Center today shows that 22% 
of respondents--a sample that represents more than 50 million adults--
were aware of recent situations in which girls' sports teams in high 
school or college were being treated worse than boys' teams.18
    Moreover, the Center has just concluded a new examination of the 
athletics complaints filed with, and compliance reviews conducted by, 
the Department of Education's Office for Civil Rights over the last 
five years. This review reveals that 35 years after the enactment of 
Title IX, women are still given fewer opportunities than males to 
participate in sports, and, when they do play, are treated like second-
class citizens in the facilities, equipment, coaching, publicity and 
other support services that they receive. Here are some of the key 
findings of the Center's report, ``Barriers to Fair Play.''\19\
    Discrimination against girls and women in sports remains 
widespread. There were 416 athletics complaints filed with OCR between 
January 1, 2002 and December 31, 2006--likely just a fraction of the 
number of complaints that were raised informally with schools during 
that period. The OCR complaints challenged discrimination against girls 
or women 11 times more frequently than they claimed discrimination 
against males, demonstrating concretely that the playing field is still 
far from level for female athletes.
    Schools' second-class treatment of female athletes, even when they 
are given a chance to play, is a particular concern. While more than 
one-quarter of the complaints overall challenged schools' failures to 
provide sufficient participation opportunities for girls and women, 
more than half--54%--challenged inequitable treatment of girls' or 
women's teams once female athletes were allowed to play. Among 
complaints filed by or on behalf of girls, moreover, fully 60% of the 
allegations concerned inequities in treatment of female teams. And many 
of the treatment complaints--particularly those concerning disparities 
between girls' softball and boys' baseball teams, such as in the 
quality of softball versus baseball fields--identified blatant and 
egregious inequities that had persisted for many years.
    Coaches fear retaliation if they complain, so the burden typically 
falls on students and their parents to protest discrimination. Although 
coaches have greater access to information and are often in the best 
position to perceive and challenge discrimination, coaches filed only 
just shy of 8% of the 416 complaints made during the relevant period. 
Tellingly, a full 50% of those complaints alleged retaliation in 
addition to other forms of discrimination against the coaches and their 
female athletes.
    Discrimination complaints filed by or on behalf of female athletes 
were far more likely to be meritorious enough to secure changes than 
complaints filed by or on behalf of male athletes. Schools made changes 
to their athletics programs in response to complaints filed by or on 
behalf of female athletes at close to five times the rate at which they 
made changes in response to complaints filed by or on behalf of male 
athletes. As a corollary, OCR found no violation in almost double the 
number of complaints filed by men as in complaints filed by women.
    In addition to, and reinforcing, the report and survey the National 
Women's Law Center is issuing today, the Women's Sports Foundation last 
week released a new report, ``Who's Playing College Sports,'' which 
includes an analysis revealing the disparities that still exist between 
men's and women's participation opportunities in intercollegiate 
sports. These resources all confirm the persistence of discrimination 
against women and girls on the playing field.
II. OCR Enforcement Efforts Have Fallen Short
    Significantly, Barriers to Fair Play also reveals that OCR has 
failed to take the proactive steps necessary to combat discrimination 
in athletics. In some cases, moreover, the agency delayed justice or 
placed unreasonable burdens on complainants.
    In addition to responding to complaints, OCR is responsible for 
initiating assessments of Title IX compliance by federally funded 
educational institutions across the country. During the five year 
period covered by the Center's review, however, OCR initiated only one 
compliance review of a school's athletics program--a record 
substantially below that of the preceding Administration. Not only has 
the number of compliance reviews noticeably decreased over the past 6 
to 7 years; the focus of those reviews has narrowed considerably. 
Between 1995 and 2000, OCR annual reports either listed equal 
opportunity in athletics as a focus of enforcement efforts or provided 
examples of compliance reviews that addressed athletics. But between 
2001 and 2005, no annual reports mentioned athletics as a focus for 
compliance reviews, and none cited examples of athletics as evidence of 
successful reviews. Instead, OCR reports for 2003 through 2005 all 
focus on ensuring that state agencies have designated Title IX 
coordinators, developed and disseminated antidiscrimination procedures, 
and implemented grievance procedures. In fact, 50 of 59 compliance 
reviews between 2002 and 2006 dealt exclusively with these procedural 
violations.20
    Strong internal procedures and policies are, of course, essential 
for schools to adequately address substantive Title IX violations. But 
the existence of such policies should represent only the beginning of 
an inquiry about a school's compliance with Title IX's substantive 
requirements. A school's designation of a Title IX coordinator and the 
establishment of procedures are necessary but insufficient steps to 
ensure that real action is being taken to end sex discrimination. OCR's 
failure to go beyond this superficial examination of a school's 
policies and practices represents a damaging reduction in its 
enforcement efforts.
    In addition, the resolution of some of the complaints filed in this 
period was unreasonably delayed in a number of instances; in one case, 
a complaint languished in the Kansas City regional office for nearly 
4\1/2\ years. Moreover, OCR sometimes put onerous evidentiary burdens 
on female athletes filing complaints, for example by refusing to 
investigate a complaint alleging disparities between a school's 
softball and baseball teams unless the complainant could produce 
evidence of overall program violations for all teams.21 This represents 
an abdication of OCR's enforcement responsibilities, given that 
complainants often lack access to the information necessary to evaluate 
an athletics program overall, and demonstrates the need for strong 
oversight over OCR's enforcement efforts.
III. Private Enforcement is Necessary to Ensure Effective Protection of 
        Title IX Rights
    The inadequacies of OCR's enforcement point up the importance of 
educating people about their rights under the law and ensuring that 
they have the tools and the representation they need to effectively 
challenge violations of Title IX. In fact, the Center's own experience 
confirms that individuals can make an enormous difference in leveling 
the playing field. Here are just a few examples of individuals we have 
worked with and supported over the past five years:
    As you will later hear from Mr. Jack Mowatt, in 2006 the Prince 
George's County Public Schools Board of Education approved a county-
wide Title IX settlement with the Center to ensure that girls in each 
of the county's middle and high schools are given equal treatment of 
their teams and equal opportunities to participate in sports. The 
settlement resulted after Mr. Mowatt brought attention to the unsafe 
conditions at county softball fields; as a Washington Post article, 
Title IX Deal Transforms Dreams to Fields, demonstrated during the 
spring, female athletes in Prince George's County were elated with the 
improvements the County has already begun to make.
    In 2003, Washington-Lee High School in Arlington, Virginia agreed 
to take significant steps toward correcting inequities that pervaded 
the girls' sports program. The settlement resulted after Christine 
Boehm, a senior and four-year member of the field hockey team, realized 
there were serious disparities between the treatment of male and female 
athletes, including the absence of a locker room for female athletes, 
poorly maintained field hockey fields, and fewer amenities such as 
permanent scoreboards and covered dugout areas. Ms. Boehm first brought 
the problems to the school's attention in 2002. The Center, along with 
the law firm of DLA Piper, negotiated the settlement to remedy the 
inequalities.
    In 2005, the United States Supreme Court held that Title IX 
provides protection from retaliation to those who challenge 
discrimination. In Jackson v. Birmingham Board of Education, Roderick 
Jackson sued the Birmingham Board of Education for firing him as the 
girls' high school basketball coach after he complained about the 
inequalities his team endured, including inferior facilities, travel 
arrangements to games, amenities, and financial support from the city. 
Following the Supreme Court ruling, the Board reached an agreement with 
Coach Jackson in November 2006. He returned to coaching at Jackson-Olin 
High School and was compensated for his financial losses. 
Significantly, the Board also agreed to district-wide modifications to 
their athletics programs to ensure that all of its schools were in 
compliance with Title IX.
    Earlier this year, the United States Supreme Court denied review in 
Communities for Equity v. MHSAA, in which the lower courts consistently 
found that the Michigan High School Athletics Association had violated 
the U.S. Constitution, Title IX and Michigan state law by scheduling 
six girls' sports, and no boys' sports, in nontraditional and 
disadvantageous seasons. A group spearheaded by two local parents, 
Communities for Equity, brought suit to challenge MHSAA's scheduling 
decisions, which meant that girls across the state had limited 
opportunities to be seen by college recruiters, to compete for athletic 
scholarships, and to play club sports. The Supreme Court's denial of 
review means that justice for Michigan girls should finally be around 
the corner, when the Association implements a plan that will equalize 
the seasons in which boys and girls play in the state.
IV. More Must Be Done to Ensure that Students, Parents, Coaches and 
        Advocates Have the Tools They Need to Enforce the Law
    As the examples above illustrate, individuals, including students, 
parents, coaches and other advocates, have a tremendous ability to make 
a difference in leveling the playing field for female athletes. But the 
poll the Center is releasing today shows that they need information and 
guidance. In the national survey, only 40% of respondents said they 
knew what steps to take to enforce Title IX.22 Similarly, Barriers to 
Fair Play reveals that more must be done to educate high school 
students and parents about their rights. Although female high school 
athletes file a greater absolute number of complaints than their 
college-aged counterparts, female college athletes file complaints at 
significantly higher rates than high school students. This trend, which 
likely reflects high school students' lack of knowledge about Title IX 
or their rights under the law, is particularly troubling because it is 
most often through participation in sports in their teenage years that 
girls not only learn life skills but become prepared to play in college 
and to maintain healthy lifestyles into the future.
    In order to provide this education--and in the absence of adequate 
government enforcement of the law--the Center is today unveiling two 
new resources designed to enable individuals to effectively assert 
their rights under Title IX. The first is Breaking Down Barriers, a 
comprehensive manual that takes a step-by-step approach to educate 
those subject to discrimination in athletics, as well as their 
advocates and attorneys, on how to assert a Title IX claim. The second 
is a new website, FairPlayNow.org, which the Center is maintaining with 
the Women's Sports Foundation and regional partners from around the 
country including the Women's Law Project in Philadelphia, the 
California Women's Law Center and the Northwest Women's Law Center. 
FairPlayNow is designed to provide one-stop shopping for students, 
parents, coaches, advocates, and attorneys to learn about Title IX, 
find tools to evaluate their schools' compliance with the law, and use 
materials that can help them hold their schools accountable for 
remedying discrimination.
VI. Congress Must Do More to Ensure Effective Protection From Sex 
        Discrimination
    My colleagues today will address some of the ways in which 
Congressional action is necessary to address the barriers that persist 
in STEM disciplines and the sexual harassment that continues to limit 
educational opportunities for far too many young women. With regard to 
athletics, there are three specific and concrete actions that Congress 
can, and must, take to ensure effective protection of the law.
    First, given the rampant discrimination that still exists, Congress 
must exercise more oversight over OCR. With its enforcement powers, OCR 
can effect great changes, but this requires a targeting of resources 
and a greater commitment to enforce Title IX in all areas of education. 
Congressional oversight can help to ensure that OCR uses all of the 
enforcement tools available to it, including compliance reviews and 
proactive measures like the provision of technical assistance, as well 
as that OCR applies strong legal standards and seeks effective remedies 
for discrimination.
    Second, Congress can vastly improve the ability to address 
discrimination at the high school level by passing the High School 
Athletics Accountability Act. This bipartisan bill, which was 
introduced in the House by Representatives Louise Slaughter and Shelley 
Moore Capito, would amend the Elementary and Secondary Education Act of 
1965 to direct coeducational elementary and secondary schools to make 
publicly available information on equality in school athletic programs. 
The bill would require schools to provide information about the gender 
breakdown of students who participate in athletics, as well the 
expenditures the schools make for each team. This information is 
already required at the college level, and is largely collected, but 
not disclosed, by high schools. The bill would thus fill a gaping hole 
in access to information that is necessary to evaluate whether schools 
are fulfilling their obligations under Title IX and would thereby 
improve the ability of students, parents and others to ensure 
enforcement of the law.
    Third, Congress must take steps to overturn and limit the 
Additional Clarification that the Department of Education issued in 
March 2005 without notice or opportunity for public comment. This new 
policy is dangerous because it allows schools to show compliance with 
Title IX's participation requirements simply by sending an email survey 
to female students and then claiming that a failure to respond 
indicates a lack of interest in playing sports. The Clarification 
weakens the law by eliminating schools' obligations to look broadly and 
proactively at whether they are satisfying women's interest, and 
threatens to reverse enormous progress women and girls have made in 
sports since the enactment of Title IX.
Conclusion
    While much progress has been made over the last 35 years under 
Title IX, many battles still must be fought to eradicate sex 
discrimination in education and enable women and girls to realize their 
full potential. Women and girls still face unacceptable and unlawful 
barriers to athletic opportunity, which continue to contribute to the 
``corrosive and unjustified discrimination against women'' that Title 
IX was intended to eliminate.23 We must use this anniversary to 
recommit ourselves to making the letter and the spirit of the Title IX 
law a reality across all areas of education.
                                endnotes
    \1\ Title IX of the Education Amendments of 1972, 20 U.S.C. Sec.  
1681 et seq.
    \2\ U.S. Department of Education, National Center for Education 
Statistics (NCES), The Condition of Education, table 8-1, available at 
http://nces.ed.gov/programs/coe/2007/section1/table.asp?tableID=672.
    \3\ See Department of Health, Education, and Welfare, Policy 
Interpretation, 44 Fed. Reg. at 71419 (1979).
    \4\ Remarks of Senator Stevens (R-AL), 130 Cong. Rec. S 4601 (daily 
ed. April 12, 1984).
    \5\ National Collegiate Athletic Association (NCAA), 1981-82--2004-
05 NCAA Sports Sponsorship and Participation Rates Report 72 (2006).
    \6\ National Federation of State High School Associations (NFHS), 
1971 Sports Participation Survey (1971).
    \7\ National Federation of State High School Associations (NFHS), 
2005 High School Athletics Participation Survey 2 (2005).
    \8\ Memorandum from The Mellman Group, Inc. on Title IX to the 
National Women's Law Center, 1 (June 8, 2007) (on file with the 
National Women's Law Center.)
    \9\ Id.
    \10\ Id. at 2.
    \11\ Greene, J. and Winters, M., Leaving Boys Behind: Public High 
School Graduation Rates, Manhattan Institute Civic Report 48 (2006).
    \12\ Orfield, G., et al., Losing Our Future: How Minority Youth are 
Being Left Behind by the Graduation Rate Crisis, Cambridge, MA: The 
Civil Rights Project at Harvard University. Contributors: Urban 
Institute, Advocates for Children of New York, and The Civil Society 
Institute (2004).
    \13\ See National Women's Law Center, Tools of the Trade: Using the 
Law To Address Sex Segregation In High School Career and Technical 
Education (2005), available at http://www.nwlc.org/pdf/
NWLCToolsoftheTrade05.pdf.
    \14\ See Department of Health, Education, and Welfare, Policy 
Interpretation, 44 Fed. Reg. at 71419 (1979).
    \15\ National Collegiate Athletic Association (NCAA), 1981-82--
2004-05 NCAA Sports Sponsorship and Participation Rates Report 72 
(2006).
    \16\ National Collegiate Athletic Association (NCAA) 2003-04 
Gender-Equity Report 12 (2007).
    \17\ Id. at 25.
    \18\ The Mellman Group, Inc., Title IX Survey, Conducted May 22-24, 
2007 1 (on file with the National Women's Law Center).
    \19\ Each of the following points is drawn from the National 
Women's Law Center's report Barriers to Fair Play, available at http://
www.nwlc.org.
    \20\ National Women's Law Center, Barriers to Fair Play (2007).
    \21\ Id.
    \22\ Memorandum from The Mellman Group, Inc. on Title IX to the 
National Women's Law Center, 2 (June 8, 2007) (on file with the 
National Women's Law Center.)
    \23\ 118 Cong. Rec.5803 (1972) (remarks of Sen. Bayh).
                                 ______
                                 
    [Internet address to three amicus briefs, submitted by Ms. 
Greenberger, follows:]

              http://www.nwlc.org/pdf/3%20Amicus%20Briefs-
                   %20Neal,%20Wrestlers,%20Cohen.pdf

                                 ______
                                 
    Chairman Hinojosa. Thank you very much for your 
presentation. As stated earlier, the entire testimony which you 
presented will be made part of today's congressional hearing.
    And I must move forward, because we have quite a few 
witnesses to speak today. With that, I recognize Ms. Maatz.

   STATEMENT OF LISA M. MAATZ, DIRECTOR OF PUBLIC POLICY AND 
 GOVERNMENT RELATIONS, AMERICAN ASSOCIATION OF UNIVERSITY WOMEN

    Ms. Maatz. Thank you, Chairman Hinojosa, Ranking Member 
Keller. Thank you very much for having me here today.
    My name is Lisa Maatz. I am the director of public policy 
and government relations for the American Association of 
University Women. And I appreciate the opportunity to testify 
today in honor of Title IX's 35th anniversary and, more 
specifically, about the law's impact on sexual harassment in 
education.
    Founded in 1881, the American Association of University 
Women has over 100,000 members and a proud 125-year history as 
a vocal advocate for education and equity for women and girls. 
AUW has been in the forefront of research on sexual harassment 
in schools for more than a decade, releasing its first report 
in 1993, just one year after the U.S. Supreme Court explicitly 
recognized sexual harassment as a violation of Title IX.
    Before Title IX, there was little remedy for addressing 
sexual harassment in education settings. However, legal rulings 
have determined that Title IX offers protections from sexual 
harassment for both students and employees. While awareness and 
reporting have increased, AUW has found that sexual harassment 
continues to be an exceedingly common occurrence in our 
Nation's schools. Further, while it is clear that it 
disproportionately affects women, boys and men experience 
sexual harassment as well and, like women, have used Title IX 
in an attempt to improve their situations.
    Increased awareness to proactive efforts on behalf of 
educational institutions and Title IX advocates and legal 
remedies have all resulted in better efforts to confront the 
issue, but they have not solved the problem. Since AUW's first 
research into this area, we have found that while students have 
become much more aware of schools' harassment policies and the 
resources available to them, this has not translated into fewer 
incidents, nor has it increased the likelihood that a person 
would actually report an incident of sexual harassment. In 
fact, more than one-third of college students tell no one after 
being harassed, and only 7 percent actually tell a college 
official.
    While not every incident of sexual harassment reported in 
AUW studies is necessarily representative of a violation 
reaching Title IX proportions, these statistics do depict a 
campus climate that, at a minimum, is likely to be fertile 
ground for Title IX violations. AUW urges schools to go beyond 
the policies and take proactive measures and practical 
strategies to combat the range of sexual harassment. In so 
doing, we hope to promote the best learning environment 
possible as well as to avoid potential litigation.
    According to our research, 80 percent of students at the 
secondary level report that they have experienced sexual 
harassment. Over one in four say that they experience it often. 
And these persistently high rates disrupt students' abilities 
to learn and succeed in their studies. At the post-secondary 
level, nearly two-thirds of college students say that they have 
been sexually harassed, and 41 percent of students admit that 
they have sexually harassed another student.
    AUW's research also shows that sexual harassment takes an 
especially heavy toll on female students. Among women college 
students who encountered harassment, a third stated that they 
felt afraid. Almost half tried to avoid the harasser, and 
almost 10 skipped a class or dropped a course so that they 
could do so. Girls at the secondary level are even more likely 
to change their behaviors, including not talking in class and 
also going to extreme measures to avoid their harassers.
    So how does Title IX protect students? It protects them in 
all of a school's programs or activities, whether the 
harassment takes place in the facilities of the school, on a 
school bus or at a class or training program that is sponsored 
by the school. Title IX also prohibits sexual harassment by 
employees of the school. Covered institutions must have a 
procedure in place that provides for the equitable resolution 
of any sexual harassment complaints which may at the same time 
be the procedure that is also set up for general Title IX 
complaints.
    The groundwork for protecting students from sexual 
harassment was first laid in 1972 with the passage of Title IX. 
In 1992, the Supreme Court case Franklin v. Gwinnet County 
Public Schools made it possible for students to seek monetary 
damages for sexual harassment by a teacher. In 1997, the U.S. 
Department of Education's Office for Civil Rights issued a 
policy guidance making it clear that inaction is never the 
right response to sexual harassment and urging schools to adopt 
policies and procedures that would help to prevent such 
misconduct.
    However, the harsh liability standards under the 1998 
Gebser and the 1999 Davis decisions by the Supreme Court have 
been damaging for students. Schools are liable only if those in 
authority have actual knowledge about harassment and responded 
with deliberate indifference. This creates a perverse incentive 
for schools to insulate themselves from knowledge of 
harassment.
    AUW and its coalition partners believe that Congress should 
overturn the liability standards set in Gebser and the Davis 
decisions and provide the same remedies and protections to 
students that are available to employees who experience sexual 
harassment.
    So what else can we do? AUW believes that parents, 
educators and advocates should focus on changing the culture of 
harassment in schools and promote students' use of existing 
resources to address the problems. The Federal Government also 
has a role to play in preventing sexual harassment, as well as 
a role in responding to it when it does happen.
    School policies aren't enough, and we must have strong, 
proactive and effective Title IX enforcement. First, 
educational programs and institutions must perform their Title 
IX responsibilities, including naming a Title IX compliance 
officer. Second, educational institutions at all levels must 
create publicized and enforce clear and accessible sexual 
harassment policies so that we can proactively educate all 
members of a school community. They should be a part of student 
codes of conduct, clarify expectations, spell out ramifications 
and protect students after harassment has occurred. Third, 
educational institutions must take all sexual harassment 
behaviors seriously. Incidents brushed off as harmless joking 
or bullying can sometimes turn into bigger problems. And 
lastly, the United States Department of Education must 
vigorously enforce all portions of Title IX in all aspects of 
education. Undertaking proactive compliance reviews to identify 
problems in both policies and climate should be important 
strategies of solid enforcement.
    Sexual harassment defies a simple solution, but the problem 
is unlikely to go away on its own. While many schools have 
taken the first step in creating policies, more could be done 
and should be done to help alleviate the culture of harassment 
that impacts the lives and educational experiences of so many 
students. Thank you again for the opportunity to testify and I 
look forward to answering your questions.
    [The statement of Ms. Maatz follows:]

  Prepared Statement of Lisa M. Maatz, Director of Public Policy and 
Government Relations, American Association of University Women; Interim 
                   Director, AAUW Legal Advocacy Fund

    Chairman Hinojosa and members of the subcommittee, thank you for 
the opportunity to testify today about Title IX and this wonderful 
civil rights law's impact on sexual harassment in education since its 
inception 35 years ago.
    Founded in 1881, AAUW has over 100,000 members and 1300 branches 
across the country. AAUW also has a long and proud 125-year history as 
an advocate for education and equity for women and girls, releasing its 
first report on women and education in 1885. Today, AAUW continues its 
mission through education, research, and advocacy.
    Sexual harassment has long been a part of the educational 
experience, affecting students' well-being and their ability to succeed 
academically. The term ``sexual harassment,'' coined in the early 
1970's, became more commonly used in the 1980's. Sexual harassment is 
unwanted and unwelcome sexual behavior--including comments and 
actions--that directly deprives a person of educational benefits or is 
sufficiently severe or pervasive to create a hostile environment, 
thereby limiting full access to education and work. Before Title IX, 
there was little remedy for addressing sexual harassment in educational 
settings. However, legal rulings have conclusively determined that 
Title IX offers protections from sexual harassment for students and 
employees--indeed, the U.S. Supreme Court explicitly recognized sexual 
harassment as a violation of Title IX in 1992.\1\
    Despite these court holdings, sexual harassment continues to 
undermine equal opportunity in education. While awareness and reporting 
have increased, AAUW research has demonstrated the reality that sexual 
harassment continues to plague our nation's schools and students. When 
a student experiences sexual harassment on campus or in the classroom, 
the hostile environment it creates can undermine their educational 
opportunity. Awareness of the issue, proactive efforts on behalf of 
educational institutions and Title IX advocates, and legal remedies 
have resulted in more efforts to address the problem in recent years--
but those efforts have not cured the problem. Further, while it is 
clear that sexual harassment in the schoolroom and on college campuses 
disproportionately affects women, boys and men experience harassment as 
well, and they have used various Title IX remedies in an attempt to 
improve their situations. While improvements must be noted and praised, 
and best practices should be shared to create a better educational 
climate for all, sexual harassment remains a pervasive problem.
    AAUW has been at the forefront of research on the topic for more 
than a decade.\2\ Since AAUW's first research into this area in 1993, 
students have become more aware of their schools' harassment policies 
and the resources available to them.\3\ Unfortunately, students' 
increased awareness has not translated into fewer incidents of sexual 
harassment, nor has it increased the likelihood that students will 
report such incidents.\4\ Sexual harassment has serious implications 
for students, some of whom may experience a hostile educational 
environment on a daily basis. However, most students do not report it 
or even talk openly about sexual harassment as a serious issue.\5\ In 
fact, according to AAUW's 2006 research, Drawing the Line: Sexual 
Harassment on Campus, more than one-third of college students tell no 
one after being harassed; almost half (49 percent) confide only in a 
friend; and only 7 percent of students report the incident to a college 
employee.\6\ While not all the harassment incidents reported in the 
2006 research would necessarily represent a violation of Title IX, 
these statistics raise serious concerns about barriers that continue to 
exist for women on our nation's campuses and depict a campus climate 
that, at a minimum, is likely to be a breeding ground for Title IX 
sexual harassment violations.\7\
Scope of the Problem
    AAUW research reveals a significant climate problem, which if fixed 
could prevent the need for people to go to file sexual harassment suits 
to protect their rights. By taking a broad approach in analyzing this 
issue, AAUW's research seeks to identify the scope of the problem so 
that schools can take proactive steps to address sexual harassment. In 
so doing, we hope to promote the best learning environment possible as 
well as avoid potential litigation. Improving the climate is critical, 
because sexual harassment on college and university campuses has a 
damaging impact on the educational experience of many college 
students.\8\ Similarly, persistently high rates of sexual harassment 
among students at the secondary level disrupt students' ability to 
learn and succeed in their studies.\9\ Most students have an intuitive 
understanding of what defines sexual harassment, and when asked to 
provide a definition, describe it as physical and non-physical 
behaviors including touch, words, looks, and gestures.\10\ According to 
AAUW's own research, student reports of sexually harassing behavior 
remain high:
    <bullet> 80 percent of students at the secondary level report that 
they experience sexual harassment; over one in four say they experience 
it often.\11\
    <bullet> At the postsecondary level, nearly two-thirds of college 
students (62 percent) say they have been sexually harassed,12 including 
nearly one-third of first year students;\13\ 41 percent of students 
admit they have sexually harassed another student.\14\
Consequences of Sexual Harassment in Schools
    A college education is increasingly becoming a prerequisite for 
many career paths and for lifelong economic security. With a college 
student population that has topped 10 million and continues to grow, 
creating a climate that is free from bias and harassment is a necessary 
concern for the entire higher education community. Young adults on 
campus are shaping behaviors and attitudes that they will take with 
them into the workplace and broader society. A campus environment that 
tolerates inappropriate verbal and physical contact and that 
discourages reporting these behaviors undermines the emotional, 
intellectual, and professional growth of millions of young adults.
    AAUW's research shows that sexual harassment on campus takes an 
especially heavy toll on young women. Among female students who 
encountered harassment, a third stated that they felt afraid, and about 
one in five women who report being harassed said that they were 
disappointed in their college experience as a result of the 
harassment.\15\
    Commonly, students at the secondary and postsecondary level are 
often resigned that sexual teasing and harassment is just something 
they have to live with, though they find the incidents troubling and 
distressing.\16\ Girls are far more likely than boys to feel ``self 
conscious'' (44 percent to 19 percent), ``embarrassed'' (53 percent to 
32 percent), and ``less confident'' (32 percent to 16 percent) because 
of an incident of harassment.\17\
How Title IX Protects Students
    Title IX protects students from unlawful sexual harassment in all 
of a school's programs or activities, whether the harassment takes 
place in the facilities of the school, on a school bus, at a class or 
training program sponsored by the school at another location, or 
elsewhere. Title IX protects both male and female students from sexual 
harassment, regardless of who the harasser may be.\18\
    Title IX also prohibits sexual harassment by any employee or agent 
of the school. Covered institutions must have a procedure in place that 
provides for equitable resolution of sexual harassment complaints, 
which may be the same procedure set up for general Title IX 
complaints.\19\ While many schools and universities have taken the 
first step in creating policies to address this problem, more must be 
done to help alleviate the culture of harassment that impacts the lives 
and educational experiences of so many students.
Case Law and Regulations Addressing Sexual Harassment in Schools
    The ground work for protecting students from sexual harassment was 
first laid in the educational arena in 1972, when Title IX was passed 
and sex discrimination was prohibited in any educational program or 
activity that receives federal funding. In 1986, the U.S. Supreme Court 
first recognized what is now known as hostile environment sexual 
harassment in Meritor Savings Bank v. Vinson.\20\ The decision was 
based on Title VII of the Civil Rights Act of 1964, but was immediately 
adopted under Title IX as well.\21\ The 1992 Supreme Court case, 
Franklin v. Gwinnet,\22\ resulted in the landmark Title IX ruling that 
made it possible for students to seek monetary damages for sexual 
harassment by a teacher. Since then, the number of sexual harassment 
cases against colleges and universities, as well as elementary and 
secondary public schools, has grown substantially.
    In 1997, the U.S. Department of Education's Office for Civil Rights 
issued policy guidance on sexual harassment, outlining Title IX's 
requirements in this area and providing schools with much-needed help 
in defining, addressing, and preventing sexual harassment.\23\ The 1997 
guidance makes clear that inaction is never the right response to 
sexual harassment, and urges schools to adopt policies and procedures 
that help prevent such misconduct.
    In 1998, Gebser v. Lago Vista Independent School District,\24\ the 
U.S. Supreme Court created a new Title IX standard not used in 
virtually any other anti-discrimination law. The court held that 
regardless of the absence of policies, grievance mechanisms or other 
reasonable actions, schools cannot be held financially responsible for 
the harm done when a teacher sexually harasses a student unless a 
school official with authority to take corrective measures had ``actual 
knowledge'' of the specific harassment and responded to it with 
``deliberate indifference.'' \25\ The court rejected standards of Title 
VII of the Civil Rights Act of 1964, resulting in fewer protections for 
students than for employees of a school system, and making students 
vulnerable to sexual harassment.
    In 1999, the U.S. Supreme Court ruled again on sexual harassment in 
schools in Davis v. Monroe County Board of Education.\26\ The court 
found that school districts can be held liable under Title IX for 
student-to-student sexual harassment if the school district knew about 
the harassment and responded with deliberate indifference. The 
harassment must be severe, pervasive, and offensive, and it must 
interfere with the student's ability to get an education. Schools 
cannot, however, be held responsible for teasing and bullying.
    These harsh standards for liability have been extraordinarily 
damaging for students and have resulted in the dismissal of dozens of 
harassment claims since the Gebser and Davis decisions were issued. 
They create a perverse incentive for schools and school districts to 
insulate themselves from knowledge of harassment, and provide an 
inadequate level of protection to students. For these reasons, AAUW and 
its coalition partners believe that Congress must step in and overturn 
the liability standards set in the Gebser and Davis decisions, and 
restore effective legal protection by providing the same remedies and 
protections to students that are available to employees who are victims 
of sexual harassment.
    In 2001, U.S. Department of Education Office of Civil Rights 
released important new policy guidance on sexual harassment to clarify 
a school's obligations in light of the Gebser and Davis decisions.\27\ 
The new 2001 guidance reinforces the 1997 guidance that schools are 
responsible for recognizing and remedying sexual harassment. Further, 
schools are potentially liable for failing to recognize or remedy such 
harassment.
    In an investigation into sexual harassment complaints filed by 
students with OCR between 1998 and 2005, conducted by the AAUW Legal 
Advocacy Fund and to be released this fall, it was found that OCR 
allowed all university and colleges they found to be in violation of 
title IX to agree to changes in their policies and procedures rather 
than institute any form of sanction against the institution--regardless 
of the egregiousness of the violation. This approach is damaging and 
sends the implicit message that institutions may as well wait until a 
complaint is filed than be proactive in ensuring their sexual 
harassment policies are clear, accessible, effective and enforced.\28\
Recommendations
    AAUW believes that parents, educators, and advocates should focus 
on changing the culture of harassment in schools, and promote students' 
use of existing resources to address the problems. The federal 
government also has a role to play in preventing sexual harassment in 
educational situations, as well as a role in responding when it does 
happen. Policies aren't enough--follow up action is critical in 
addressing this problem at all levels of education. While many schools 
and universities have taken the first step in creating policies and 
procedures to address this problem, more must be done to help alleviate 
the culture of harassment that disrupts the educational experience of 
so many students.
    Sexual harassment defies a simple solution but still demands 
action. As AAUW's research over the last decade demonstrates, the 
problem is unlikely to go away on its own. Dialogue is a good first 
step in the right direction. Students, faculty and staff, and parents 
and guardians must begin to talk openly about attitudes and behaviors 
that promote or impede our progress toward a harassment-free climate in 
which all students can reach their full potential.
    AAUW believes we also must commit ourselves to strong Title IX 
enforcement at the local, state, and federal levels and ensure 
policymakers maintain a commitment to Title IX.
    <bullet> First, education programs, activities, and institutions 
must comply with their Title IX responsibilities and ensure that 
programs do not discriminate on the basis of sex, including designating 
an employee to be responsible for compliance with Title IX (typically 
known as a Title IX coordinator).
    <bullet> Second, educational institutions at all levels must create 
and enforce clear and accessible sexual harassment policies to 
proactively protect and educate students, and post them in an 
accessible place and on web sites. These policies should be part of 
school discipline policies and student codes of conduct, and include 
provisions for effectively protecting students after harassment has 
occurred.\29\
    <bullet> Third, educational institutions must take sexual 
harassment behaviors very seriously, even if those behaviors are not 
immediately legally actionable. These behaviors can quickly turn into 
serious sexual harassment and should not be brushed off as harmless 
joking or minor bullying.
    <bullet> Fourth, Title IX coordinators and their respective schools 
or universities must proactively disseminate information in the school 
and campus community to ensure that students and employees are aware of 
sexual harassment policies, as well as the school's process for filing 
complaints.
    <bullet> Lastly, the U.S. Department of Education must vigorously 
enforce all portions of Title IX in all aspects of education. 
Undertaking proactive compliance reviews to identify problems of sex 
discrimination and fully implementing Title IX regulations are 
important strategies of solid enforcement.
    Thank you again for the opportunity to testify, and for holding 
this hearing to mark the 35th anniversary of Title IX. It continues to 
be a truly transformative civil rights law. I look forward to answering 
your questions.
                                endnotes
    \1\ Franklin v. Gwinnet County Public Schools, 503 U.S. 60 (1992).
    \2\ In 1993, AAUW released Hostile Hallways: The AAUW Survey on 
Sexual Harassment in America's Schools, which revealed that four out of 
five students in grades eight to 11 had experienced some form of sexual 
harassment. In 2001, the AAUW Educational Foundation released the 
follow-up report, Hostile Hallways: Bullying Teasing and Sexual 
Harassment in School, which found that nearly a decade later, sexual 
harassment remained a major problem and a significant barrier to 
student achievement in public schools. In response, AAUW developed a 
resource guide, Harassment-Free Hallways (2002), which provides 
guidelines and recommendations to help schools, students, and parents 
prevent and combat sexual harassment. The AAUW Educational Foundation 
released Drawing the Line: Sexual Harassment on Campus, on Jan. 24, 
2006. This report presents the most comprehensive findings to date on 
sexual harassment on college campuses. All of these publications, 
including Drawing the Line, are available at www.aauw.org/research.
    \3\ AAUW Educational Foundation. Hostile Hallways: Bullying, 
Teasing, and Sexual Harassment in School, p.4. 2001.
    \4\ AAUW Educational Foundation. Hostile Hallways: Bullying, 
Teasing, and Sexual Harassment in School, p.5. 2001.
    \5\ AAUW Educational Foundation. Drawing the Line: Sexual 
Harassment on Campus, p.33. 2006.
    \6\ AAUW Educational Foundation. Drawing the Line: Sexual 
Harassment on Campus, p. 32. 2006.
    \7\ For its research, AAUW used the following definition of sexual 
harassment: ``unwanted or unwelcome sexual behavior that interferes 
with your life.''
    \8\ AAUW Educational Foundation. Drawing the Line: Sexual 
Harassment on Campus, p.4. 2006.
    \9\ AAUW Educational Foundation. Hostile Hallways: Bullying, 
Teasing, and Sexual Harassment in School, p.4. 2001.
    \10\ AAUW Educational Foundation. Drawing the Line: Sexual 
Harassment on Campus, p. 9-10. 2006. AAUW defines sexual harassment in 
school as any unwanted and unwelcome sexual behavior that interferes 
with the student's ability to perform in an educational setting 
(Hostile Hallways: Bullying, Teasing, and Sexual Harassment in School, 
p. 2. 2001.)
    \11\ AAUW Educational Foundation. Hostile Hallways: Bullying, 
Teasing, and Sexual Harassment in School, p. 4. 2001.
    \12\ AAUW Educational Foundation. Drawing the Line: Sexual 
Harassment on Campus, p. 15. 2006.
    \13\ AAUW Educational Foundation. Drawing the Line: Sexual 
Harassment on Campus, p 2. 2006.
    \14\ AAUW Educational Foundation. Drawing the Line: Sexual 
Harassment on Campus, p. 22. 2005.
    \15\ AAUW Educational Foundation. Drawing the Line: Sexual 
Harassment on Campus, p. 29. 2006.
    \16\ AAUW Educational Foundation. Hostile Hallways: Bullying, 
Teasing, and Sexual Harassment in School, p. 32. 2001.
    \17\ AAUW Educational Foundation. Hostile Hallways: Bullying, 
Teasing, and Sexual Harassment in School, p. 32. 2001.
    \18\ U.S. Department of Education Office for Civil Rights. Title IX 
and Sexual Harassment. http://www.ed.gov/about/offices/list/ocr/docs/
ocrshpam.html Accessed April 12, 2005.
    \19\ U.S. Department of Education Office for Civil Rights. Title IX 
and Sexual Harassment. http://www.ed.gov/about/offices/list/ocr/docs/
ocrshpam.html Accessed April 12, 2005.
    \20\ Meritor Savings Bank v. Vinson, 477 U.S. 57 (1986).
    \21\ In Cannon v. University of Chicago, 441 U.S. 677 (1979), the 
U.S. Supreme Court held that Title IX was patterned after Title VII.
    \22\ Franklin v. Gwinnet Country Public Schools, 503 U.S. 60 
(1992).
    \23\ U.S. Department of Education Office for Civil Rights. ``Sexual 
Harassment Guidance 1997.'' http://www.ed.gov/about/offices/list/ocr/
docs/sexhar01.html Accessed April 12, 2005.
    \24\ Gebser v. Lago Vista Independent School District, 524 U.S. 274 
(1998).
    \25\ U.S. Department of Education Office for Civil Rights. Federal 
Register, page 2. http://www.ed.gov/legislation/FedRegister/other/2000-
4/110200b.pdf Accessed April 12, 2005.
    \26\ National Women's Law Center. Sexual Harassment, Davis v. 
Monroe Brief. http://www.nwlc.org/pdf/DavisBrief.pdf Accessed April 12, 
2005. Davis v. Monroe County Board of Education, 526 U.S. 629 (1999).
    \27\ U.S. Department of Education Office for Civil Rights. Title IX 
and Sexual Harassment http://www.ed.gov/legislation/FedRegister/other/
2000-4/110200b.html Accessed April 12 2005.
    \28\ This research was conducted based on student sexual harassment 
complaints filed with and then obtained from OCR through an AAUW FOIA 
request. The final findings will be released by the AAUW Legal Advocacy 
Fund in fall 2007.
    \29\ AAUW Educational Foundation, Harassment Free-Hallways: How to 
Stop Harassment in School, 2004, p. 17.
                                 ______
                                 
    [Additional materials submitted by Ms. Maatz follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Hinojosa. Thank you Ms. Maatz.
    Jack, you are next.

 STATEMENT OF JACK MOWATT, COMMISSIONER, MARYLAND-D.C. AMATEUR 
                      SOFTBALL ASSOCIATION

    Mr. Mowatt. Chairman Hinojosa, Ranking Member Keller and 
members of the committee, thank you for inviting me to testify 
before you today. I would like to share with you the story of a 
gender equity problem that I saw in the girls' athletics 
programs in Prince George's County, Maryland, and how those 
problems were resolved in a way that could be replicated in 
other communities across the country.
    I have been an active softball umpire in the metropolitan 
Washington, D.C. Area since 1968 and have seen many softball 
fields in Maryland. Over the years, I became more concerned 
about the many safety issues that I saw in the girls' high 
school softball fields in Prince George's County, Maryland. 
Several years ago during a game, I thought that these young 
women deserve more than this. It had been my belief that 
athletes who play on good fields play better and enjoy the game 
much more.
    I talked to a fellow umpire who had also been officiating 
for a number of years, and we decided to go around the schools 
in Prince George's County to take pictures of the safety 
hazards on the girls' fields and see what could be done to get 
the school district to make the improvements to the fields. Our 
main concern was the unsafe conditions which these young women 
were exposed to on the school softball fields.
    At first I did not think it was a gender equity problem but 
now realize by not taking care of the softball fields, the 
county was sending a message to the girls that their sport was 
not as important as the boys. Our photographs of the fields 
showed problems that go beyond safety concerns. The girls' 
softball fields did not have basic things that the boys' fields 
had, such as benches for the team and protective fences to 
protect them. For example, at Largo High School, the boys' 
baseball field had perimeter fencing, dugouts and a scoreboard. 
The girls' softball field had none of these.
    After we had taken the pictures of every high school 
softball field in Prince George's County, we presented the 
county athletic director with the photographs and asked him to 
make improvements to the fields. We also requested help from 
the former school superintendent. Unfortunately, after numerous 
conversations, nothing was done to improve the girls' fields.
    After a year, when we saw that Prince George's County was 
not responding, one of the softball coaches and I contacted the 
National Women's Law Center in 2003. Together with the center 
we did a more comprehensive investigation of the treatment of 
female athletes as compared to male athletes in Prince George's 
County. We found serious problems in the way girls' teams were 
treated, including the number of participation opportunities 
offered to the girls and the amount of money that the school 
districts spend on girls' sports.
    The center sent a letter to the attorneys for Prince 
George's County schools in the fall of 2004 describing all the 
ways in which the girls were not being treated fairly and 
reminded the county of its Title IX obligation. Fortunately, 
the county stepped up to the plate and recognized that it 
needed to make changes.
    Over the next year and a half, the center, together with 
the attorneys from the D.C. Office of Steptoe & Johnson 
negotiated an agreement that included all middle and high 
schools in the county require equal treatment for girls in 
opportunities to practice and play, funding and facilities and 
many other areas. Some of these areas included, by the 
beginning of the 2007 softball season, the Board had to improve 
the softball fields and the conditions to play, which some 
schools required that it install backstops and fencing to 
protect players and fans from balls; eliminate jagged edges 
around fencing; and make sure fields were free of other safety 
hazards.
    These small changes, which the Board had already made, has 
led the girls' softball to feel like, for the first time, they 
are important. See Josh Barr, ``Title IX Deal Transforms Dreams 
to Fields,'' in the Washington Post on March 22 of 2007.
    By the beginning of the 2008 softball season, the Board 
will make additional improvements to the softball field to 
provide girls with the same amenities that are already provided 
for the boys' baseball teams. In some cases, they include 
covered dugouts, scoreboards and bleachers.
    Beyond softball, the Board agreed to provide equal funding 
for the boys' and girls' sports to make the outside fundraising 
not create inequities between boys' and girls' programs. The 
board will also provide girls' and boys' teams with equal 
facilities, and the male and female athletes will receive an 
equal quality of publicity.
    People of Prince George's County will be able to hold the 
Board to its word that they will provide these equal 
opportunities to the male and female students. The agreement 
requires the Board to regularly evaluate the athletic program 
and its compliance with the agreement.
    I am so glad the board of education agreed to do the right 
thing and correct the problems. The action sends a strong 
message to girls that they mean just as much as the boys. And 
providing girls with equal opportunities to play sports is an 
investment in their future. Studies show that girls who play 
sports have higher grades, are less likely to drop out and have 
higher education rates than those that do not play sports. 
Athletes are less likely to smoke or use drugs. And female 
athletes have a lower rate of both sexual activity and 
pregnancy than females that do not play sports. Playing sports 
also deprives our young women of chances to develop heart 
disease, breast cancer and depression.
    Unfortunately, I have learned the problems we found in 
Prince George's County are not unique. Title IX turns 35 this 
week. While women and girls have come a long way since the law 
was passed in 1972, a lot of work still needs to be done. For 
example, there are many reports that girls across the country 
and even in your district are playing in run-down, bare-bones 
softball fields while boys are playing on Major League baseball 
teams.
    [The statement of Mr. Mowatt follows:]

 Prepared Statement of Jack Mowatt, Commissioner, Maryland-DC Amateur 
                          Softball Association

    Chairman Hinojosa, Ranking Member Keller, and members of the 
Committee, thank you for inviting me to testify before you today. I 
would like to share with you my story of the gender equity problems 
that I saw in the girls' athletics programs in Prince George's County, 
Maryland and how those problems were resolved in a way that could be 
replicated in other communities across the country.
    I have been an active softball umpire in the Washington, D.C. 
metropolitan area since 1968 and have seen many softball fields in 
Maryland. Over the years, I became more and more concerned about many 
of the safety issues that I saw on the girls' high school softball 
fields in Prince George's County, Maryland. Several years ago during a 
game, I thought: These young women deserve more than this. It has been 
my belief that athletes who play on good fields play better and enjoy 
the game much more.
    I talked to a fellow umpire who has also been officiating for a 
number of years, and we decided to go around to the schools in Prince 
George's County and take pictures of the safety hazards at the girls' 
fields and see if we could get the school district to make improvements 
to the fields. Our main concern was the unsafe conditions to which 
these young women were exposed on their school softball fields. At 
first, I did not think of the problems as gender equity problems, but 
now I realize that by not taking care of the softball fields, the 
county was sending a message to girls that their sports are not as 
important.
    Our photographs of the fields showed problems that go beyond safety 
concerns. The girls' softball fields did not have basic things that the 
boys' fields had, such as benches for the team and fencing to protect 
them. For example, at Largo High School, the boys' baseball field there 
had perimeter fencing, dug outs and a scoreboard. The girls' softball 
field had none of those amenities.
    After we had taken pictures of every high school softball field in 
Prince George's County, we presented the County Athletic Director with 
the photographs and asked him to make improvements to the girls' 
fields. We also requested help from the former superintendent. 
Unfortunately, after numerous conversations, nothing was done to 
improve the girls' fields.
    After a year, when we saw that Prince George's County was not 
responding, one of the softball coaches and I contacted the National 
Women's Law Center in 2003. Together with the Center, we did a more 
comprehensive investigation of the treatment of female athletes as 
compared to male athletes in Prince George's County. We found serious 
problems in the way girls' teams were treated, including in the number 
of participation opportunities offered to girls and the amount of money 
the school district spends on girls' sports.
    The Center sent a letter to attorneys for the Prince George's 
County Public Schools in the fall of 2004 describing all the ways in 
which girls were not being treated fairly and reminding the county of 
its Title IX obligations. Fortunately, the county stepped up to the 
plate and recognized that it needed to make changes. Over the next year 
and a half, the Center, together with attorneys from the D.C. office of 
Steptoe & Johnson, LLP, negotiated an agreement that includes all 
public middle and high schools in the county and requires equal 
treatment for girls in opportunities to practice and play, funding and 
facilities, and many other areas. Some of the details include:
    <bullet> By the beginning of the 2007 softball season, the Board 
had to improve its softball fields and conditions of play, which at 
some schools required that it install backstops and fencing to protect 
players and fans from balls, eliminate jagged edges around fencing, and 
make sure that fields are free of gaping holes and other safety 
hazards. These small changes, which the Board has already made, have 
led girls playing softball to feel like for the first time, they are 
important. (See Josh Barr, ``Title IX Deal Transforms Dreams to 
Fields,'' Wash. Post, March 22, 2007, at E7.)
    <bullet> By the beginning of the 2008 softball season, the Board 
will make additional improvements to the softball fields to provide 
girls with the same amenities that are already provided to boys' 
baseball teams. In some cases this will include covered dugouts, 
scoreboards and bleachers.
    <bullet> Beyond softball, the Board agreed to provide equal funding 
for boys' and girls' sports and to make sure that outside fundraising 
does not create inequalities between boys' and girls' programs. The 
Board will also provide girls' and boys' teams with equal facilities 
and the male and female athletes will receive equal amounts--and equal 
quality--of publicity.
    <bullet> Finally, the people of Prince George's County will be able 
to hold the Board to its word that it will provide these equal 
opportunities to its male and female students. The Agreement requires 
that the Board regularly evaluate its athletics program and its 
compliance with the Agreement, and that it make its reports public.
    A copy of the agreement is attached to my testimony.
    I am so glad that the Board of Education agreed to do the right 
thing and correct these problems. Their actions send a strong message 
to girls that they matter just as much as boys. And providing girls 
with equal opportunities to play sports is an investment in their 
future. Studies show that girls who play sports have higher grades, are 
less likely to drop out and have higher graduation rates than those who 
do not play sports. Athletes are less likely to smoke or use drugs, and 
female athletes have lower rates of both sexual activity and pregnancy 
than females who do not play sports. Playing sports also decreases a 
young woman's chance of developing heart disease, breast cancer and 
depression. (See National Women's Law Center, ``The Battle for Gender 
Equity in Athletics in Elementary and Secondary Schools,'' June 2007, 
available at http://www.nwlc.org/details.cfm?id=2735& 
section=athletics.)
    Unfortunately, I learned that the problems we found in Prince 
George's County are not unique. Title IX turns 35 this week, and while 
women and girls have come a long way since the law was passed in 1972, 
there is lots of work still to do. For example, there are many other 
reports of girls across the country playing on run-down, bare bones 
softball fields, while boys play on fields fit for minor league 
baseball teams.
    I am so glad that the Board agreed to make changes that will 
benefit girls throughout Prince George's County and I hope school 
districts nationwide follow the school board's lead. Several years ago 
I decided that the conditions were too unsafe for me to continue 
umpiring in the County. But because of this agreement, I decided to go 
back to being an umpire and I am so excited to see the changes first 
hand. Thank you.
                                 ______
                                 
    [Additional submission by Mr. Mowatt follows:]

                         Commitment to Resolve

I. PRELIMINARY STATEMENT
    The parties--Prince George's County Public Schools (``PGCPS'') and 
the National Women's Law Center (``NWLC'')--have jointly agreed through 
their designated representatives that the interests of male and female 
students at Prince George's County Public Schools are best served by 
reaching agreement regarding the manner in which each individual school 
in the county will comply with Title IX of the Education Amendments of 
1972. The parties concur that providing equal athletic participation 
opportunities and benefits to male and female students is essential to 
Title IX compliance. Believing that these objectives can best be 
achieved through a cooperative effort joining Title IX's requirements 
with the parties' dedication to providing an athletics program that 
treats all PGCPS students fairly, the parties have entered into this 
Commitment to Resolve (or ``Agreement''), the provisions of which apply 
to each individual school that PGCPS comprises, and which is effective 
as of the date of execution by the parties (``Effective Date'').
II. GENERAL TITLE IX PRINCIPLES
    PGCPS agrees to comply with the general mandates of Title IX, its 
Regulations, 1979 Policy Interpretation, and 1996 Clarification of 
Intercollegiate Athletics Policy Guidance. Title IX prohibits gender-
based discrimination under educational programs receiving federal 
financial support.
    PGCPS is not required to have or maintain an athletics program, but 
if it does, Title IX requires that it provide equal opportunities to 
male and female students to play sports. In particular, the interests 
of female students must be effectively accommodated insofar as they 
continue to be underrepresented in athletics programs. Accommodation of 
interests may be accomplished through the initiation of new sports 
teams, through the addition of appropriate levels of teams in 
connection with existing sports, or through the addition of slots on 
existing teams as long as they represent meaningful participation 
opportunities.
    In addition, Title IX requires PGCPS to provide male and female 
athletes with equal benefits and services. These benefits and services 
for elementary and secondary schools include, but are not limited to, 
the following:
    1. Funding of interscholastic and other school-sponsored sports 
programs;
    2. Equipment and supplies;
    3. Uniforms;
    4. Scheduling of games and practice times;
    5. Travel and related expenses;
    6. Opportunity to receive coaching and the assignment and 
compensation of coaches;
    6. Provision of locker rooms, practice facilities, and competitive 
facilities;
    7. Provision of medical and training facilities and services; and
    8. Provision of publicity.
    The parties acknowledge that the Title IX Regulations and Policy 
Interpretation indicate that unequal aggregate expenditures for members 
of each sex or unequal expenditures for male and female teams alone 
will not constitute non-compliance with Title IX, but that a failure to 
provide necessary funds for teams of one sex is relevant to assessing 
equality of opportunity for members of each sex. Furthermore, identical 
benefits, opportunities, or treatment are not required, provided the 
overall effects of any differences are negligible. PGCPS may be in 
compliance with Title IX in the event that a comparison of program 
components shows that treatment, benefits, or opportunities are not 
equivalent in kind, quality or availability, if due to 
nondiscriminatory factors, such as unique aspects of particular sports 
or athletic activities, rules of play, the nature of equipment, rates 
of injury resulting from participation, the nature of the facilities 
required for competition, or the maintenance/upkeep requirements of 
those facilities. Other factors may include legitimate sex-neutral 
factors related to special circumstances of a temporary nature as long 
as any such special circumstances do not disproportionately burden 
members of one sex. Moreover, activities directly associated with the 
operation of a competitive event in a single-sex sport, may, under some 
circumstances, create unique demands or imbalances in particular 
program components and resulting differences would not be 
discriminatory if any special demands associated with the activities of 
sports involving participants of the other sex are met to an equivalent 
degree and according to neutral rules that do not relate to the sex of 
the team. Examples would include, but not be limited to, the costs of 
managing athletic events due to crowd size.
    The above is a brief review of Title IX as it relates to secondary 
school athletics programs. It is not intended to be comprehensive or 
dispositive of the schools' obligations or individual rights or 
responsibilities. It is, however, the statutory and decisional 
framework upon which this Commitment to Resolve has been considered and 
reached. The purpose of this Commitment to Resolve is to ensure that 
PGCPS meets the requirements of Title IX; no provision contained herein 
is intended to require PGCPS to take any actions beyond what is 
required by Title IX.
III. PROVISION OF ATHLETIC OPPORTUNITIES, BENEFITS, AND SERVICES
            A. Participation
    1. To ensure that it is providing its middle and high school female 
students with equal participation opportunities, PGCPS will:
    a. Provide participation opportunities for male and female students 
in numbers substantially proportionate to their respective enrollments; 
or
    b. Expand participation opportunities in response to the developing 
interests of its female students; or
    c. Fully and effectively accommodate the interests of its female 
students.
    Regardless of which of the above three ways PGCPS chooses to comply 
with Title IX's participation requirements, the burden will be on 
PGCPS, as opposed to the students, to ensure that it is providing equal 
opportunities for female students.
    2. In determining whether its athletics program fully and 
effectively accommodates the interests and abilities of its female 
students, PGCPS may choose to use a student interest survey or any 
other nondiscriminatory method to ascertain the level of interest in 
sports that are not currently offered, as long as the method it chooses 
uses straightforward techniques that reach all middle and high school 
female students and is open-ended regarding the sports students can 
express interest in. As set forth in paragraph 3 below, if a survey or 
other nondiscriminatory method is utilized, it will be only one among 
several factors used to evaluate interest and will be conducted at 
least every other academic year so that PGCPS can identify and respond 
in a timely manner to the developing interests of its female students. 
Students' non-responsiveness to any such survey or instrument may not 
be interpreted as lack of interest in athletics. Any survey will be 
vetted through a public process and the Title IX Coordinator before 
use, and the resulting data will be documented after receipt and made 
available publicly to ensure that multiple constituencies have an 
opportunity to express comments.
    3. PGCPS will not rely exclusively on the results of any interest 
survey in showing that it is fully and effectively accommodating its 
female students' athletic interests. Rather, PGCPS will also consider 
the following to ascertain likely interests and abilities of its female 
students in particular sports and to further identify potential 
additions to PGCPS' athletic offerings for its female students: 
opinions of the Title IX Coordinator, coaches, middle school, and high 
school students that a particular sport be added; a review of the 
participation surveys that appear in the National Federation of High 
Schools Handbook; and input from the MPSSAA, Prince George's County 
Athletic Association, Prince George's County Middle School Athletic 
Association, representatives of the Maryland National Capital Park and 
Planning Commission, and the local Boys and Girls Clubs, with whom 
PGCPS will meet at least annually.
    4. PGCPS currently operates a middle school interscholastic 
athletics program. In the 2004-2005 school year, 28 out of 29 middle 
schools participated; there were 23 girls' teams, 23 boys' teams, and 5 
schools which had coed teams, available for both boys and girls. In the 
2005--2006 school year, all 30 middle schools received baseball and 
softball equipment. There are 28 girls' softball teams, 29 boys' 
baseball teams, 30 boys' basketball teams, and 29 girls' basketball 
teams. All 30 middle schools are expected to field boys' and girls' 
soccer teams in Spring 2006. To the extent that PGCPS continues to 
offer sports for middle school students, it will provide male and 
female students with equal opportunities to participate in these 
sports, and equal benefits and services to male and female athletes.
    5. PGCPS will review all of its policies related to athletic 
participation and, if necessary to comply with Title IX, will adopt, 
ensure distribution of, and publicize policies to encourage and not 
discourage girls' and boys' sports participation.
    6. For purposes of measuring participation rates, PGCPS will not 
count cheerleading as a sport unless 1) the primary purpose of a 
cheerleading squad is athletic competition and not support of other 
sports; and 2) the squad is treated like other athletic teams with 
respect to the requirements it is subject to and the athletic benefits 
and services it receives, including but not limited to, coaching, 
recruitment, budget, try-outs, eligibility, and practice sessions and 
competitive opportunities.
            B. Other Benefits and Services
    1. Softball
    Specific concerns about the treatment of softball teams were 
brought to the attention of the NWLC and prompted the program-wide 
athletics investigation that subsequently led to the negotiation of 
this Commitment to Resolve. PGCPS agrees to take the following specific 
actions with respect to its softball teams and to provide to the NWLC 
monthly written updates on the progress it makes in satisfying these 
obligations, commencing on November 1, 2006 and terminating on the date 
on which all of the obligations are met, at which time PGCPS shall so 
advise NWLC in writing of its compliance.
    a. With regard to all its softball fields, PGCPS will by no later 
than the first day of practice for the 2007 softball season:
    (1) Install protective fencing of an adequate height (at least 6 
feet) and width in front and, where necessary due to the location of 
the backstop, on the side closest to the batter of all player benches. 
PGCPS will determine where it is necessary to install protective 
fencing on the sides of the player benches with input from the NWLC or 
its designated representative;
    (2) Install backstops and make necessary safety adjustments/repairs 
to existing backstops;
    (3) Install field perimeter fencing where there are obstacles or 
barriers around the circumference on the fields. The NWLC has raised 
special concerns about the fields at Northwestern High School, Charles 
H. Flowers High School, Crossland High School and Oxon Hill High 
School. In response to these concerns, PGCPS will install a retaining 
wall and fencing on the left field line connected to the outfield fence 
at Charles H. Flowers High School; fencing on the right field line at 
Crossland High School; and fencing around the scoreboard at 
Northwestern High School. The parties understand that Oxon Hill High 
School will not require additional perimeter fencing because the 
concerns raised by the NWLC will be addressed by campus construction in 
the 2006-2007 and 2007-2008 academic years;
    (4) Install safety capping on all fences to protect players from 
exposure to sharp or jagged edges;
    (5) Provide warning tracks, where needed for safety when the field 
has fencing in the outfield;
    (6) Ensure that fields are level and free of any holes, 
depressions, raised sprinkler heads or other obstacles and clear the 
fields of any poison ivy/poison oak, debris or foreign objects;
    (7) Inspect fields before practices or games, to reasonably ensure 
their condition for safe use;
    (8) Inspect benches/stands/bleachers for structural soundness and 
safety and make necessary repairs; and
    (9) Provide transportation to and from home fields that are not 
located on the school's campus.
    (10) All steps taken under this section will meet standard National 
Federation of State High School Association regulations, if any, with 
regard to layout, dimensions and fixtures, unless it is physically 
impossible to adhere to such regulations.
    b. To the extent that a school's baseball field has any of the 
following benefits or accommodations, not available at the softball 
field at that school, PGCPS will provide to the softball team, by no 
later than the beginning of the softball season in 2008:
    (1) Stationary, covered dugouts that include player benches, except 
at Bowie High School, where PGCPS asserts that space is not available;
    (2) Field perimeter fencing if the baseball field has such fencing 
for purposes other than to demarcate property lines;
    (3) Storage sheds for equipment;
    (4) Bleachers of equal type and quality;
    (5) Scoreboards of equal type and quality, except that the parties 
acknowledge that the scoreboards currently existing at Bowie High 
School do not need to be modified pursuant to this section;
    (6) Fields that meet standard National Federation of State High 
School Association regulations, if any, with regard to layout, 
dimensions and fixtures, except for Frederick Douglass High School, 
Parkdale High School and Potomac High School, where PGCPS asserts that 
it is physically impossible to adhere to such regulations;
    (7) Tarps for covering the fields;
    (8) Batting cages; and
    (9) Warm-up pitchers' areas.
    2. Funding
    a. Subject to the provisions referenced hereinabove, in Section II, 
PGCPS will use its best efforts to allocate funding proportionately to 
the participation ratio of male and female student-athletes. However, 
as PGCPS works to increase the number of female student-athletes and to 
remedy inequities in the treatment of female athletes, additional 
funding for girls' sports may be needed to ensure Title IX athletic 
compliance.
    b. PGCPS will make every possible attempt not to cut participation 
opportunities or other athletic benefits and services for boys' teams 
in order to implement the terms of this Agreement.
    c. PGCPS will ensure that donor gifts and concession receipts do 
not create a disparity between boys' and girls' sports on a program-
wide basis. To that end, PGCPS will draft and approve a formal policy 
stating its commitment to gender equity in the funding of its athletics 
programs.
    3. Equipment, Supplies, and Uniforms
    a. PGCPS will provide athletes of both genders with uniforms and 
other apparel of equal quality and durability. The uniforms for teams 
of one gender will not be replaced more frequently than the uniforms 
for teams of the other gender unless the wear-and-tear on such uniforms 
clearly necessitates more frequent replacement. Each school shall 
maintain a purchase schedule for uniforms, equipment and supplies.
    b. To the extent that PGCPS provides athletes of one gender with 
equipment and supplies, it will also provide an equal percentage of 
athletes of the other gender with equipment and supplies necessary to 
compete effectively.
    c. PGCPS will allocate to teams of both genders equipment storage 
space that is equal in terms of quality, accessibility by the teams, 
and the percentages of the total amount of equipment accommodated.
    4. Scheduling of Games and Practice Times
    a. PGCPS will ensure that male and female teams have equal amounts 
of practice time.
    b. PGCPS will ensure that if boys' and girls' teams both require 
the use of the same practice facility, then the teams shall rotate 
practice times so that teams of each gender have an equal opportunity 
to practice during the ``prime'' practice hours, unless there are 
safety concerns for athletes and/or when coaches' schedules preclude 
them from doing so, provided that neither safety concerns nor coaches' 
schedules disproportionately advantage or disadvantage athletes of one 
gender. Practice times will be communicated to each team, posted, and 
made publicly available.
    c. PGCPS will provide male and female teams with equal numbers, 
levels, and quality of competitive events, and equal opportunities to 
engage in available pre-season and post-season competition. In 
addition, PGCPS will ensure that the seasons (i.e., time of year) when 
competitions are scheduled do not disproportionately advantage/
disadvantage athletes of one gender.
    d. If boys' and girls' competitions are scheduled for the same day 
in the same facility, then PGCPS will arrange the schedules such that 
neither the boys' nor the girls' teams are disproportionately 
advantaged or disadvantaged in terms of being able to play at ``prime'' 
times.
    5. Travel and Related Expenses
    a. To the extent that PGCPS provides transportation to and from 
games or practices, it shall provide an equal amount and quality of 
transportation to teams of both genders. In determining whether 
transportation is provided equally to teams of both genders, PGCPS will 
consider whether a team's ``home'' field is located on-campus or off-
campus.
    b. To the extent that PGCPS provides hotel accommodations, ``per 
diem,'' or other amenities for out-of-town competitions, it will do so 
equally for teams of both genders.
    6. Coaching
    a. PGCPS will provide coaches (both head and assistant coaches) to 
teams of each gender in an equitable manner such that the ratio of the 
total number of coaches to the total number of participants is similar 
for both the boys' and girls' programs. The parties understand that the 
nature of the sport of football, including the number of participants 
needed to field a team, the rate of injury, and the rate of severe 
injury, often justifies the assignment of several assistant coaches.
    b. PGCPS shall make its best efforts to ensure that the coaches for 
teams of each gender have similar levels and types of experience. For 
example, if PGCPS requires that coaches for the boys' teams have 
substantial experience as successful coaches, then it shall seek 
equivalent levels of experience in coaches for the girls' teams.
    c. PGCPS will ensure that uniform criteria are used to determine 
the compensation and benefits (including emoluments), hiring, firing, 
and promotion of coaches and athletics personnel. The criteria used 
will be applied equally to coaches for teams of both genders and to 
male and female athletics personnel.
    d. To the extent that PGCPS assigns other duties to its coaches and 
athletics personnel, it will ensure that those assignments do not 
disproportionately burden the coaches of teams of one gender or 
personnel of one gender. Coaches of male and female teams shall also be 
provided with equal support staff and office resources.
    e. Consistent with applicable law, PGCPS will make every effort to 
increase the representation of women among its coaches, athletic 
administrators, and athletic directors.
    7. Practice and Playing Facilities and Locker Rooms
    a. Practice and Playing Facilities
    (1) PGCPS will provide its male and female teams with practice and 
playing facilities that are equal in terms of quality, size (taking 
into account sport-specific needs), exclusivity of use, and the 
quality, quantity and accessibility of fixtures and amenities, subject 
to Part III.B.1.
    (2) PGCPS will ensure that practice and playing facilities, 
including fixtures and amenities, are prepared and maintained equally 
and in good, safe, and playable conditions for teams of both genders.
    (3) If boys' and girls' teams are scheduled to practice or play in 
interchangeable facilities of different quality, then PGCPS will rotate 
the use of such facilities so that each gender has an equal opportunity 
to practice and play in the better facility.
    (4) PGCPS will not permit the teams of one gender to displace the 
teams of the other gender in the use of facilities when such facilities 
have been reserved in advance or when such facilities are regularly 
used or known to be used by a team of the other gender during that 
time; where teams are displaced due to emergency circumstances, teams 
of one gender shall not be disproportionately advantaged or 
disadvantaged.
    (5) To the extent that scorekeepers, referees, or other officials 
are used at athletic competitions, PGCPS shall ensure that they are 
provided to teams of both genders on an equal basis.
    (6) PGCPS will use its best efforts to provide adequate access to 
the various school-sponsored organizations using its facilities. To the 
extent that facilities are overused, however, PGCPS will schedule use 
of the facilities such that teams of one gender are not 
disproportionately advantaged/disadvantaged.
    (7) To the extent that new high schools are built or existing high 
schools are renovated, PGCPS shall distribute available field and 
practice space at such new or renovated schools equitably between 
girls' and boys' teams;
    (8) PGCPS will provide restroom facilities that are reasonably 
accessible from the fields, such that teams of one gender are not 
disproportionately advantaged or disadvantaged by the location of the 
restroom facilities.
    b. Locker Rooms
    (1) PGCPS will provide female athletes with locker rooms and 
lockers of at least the same quality and size (taking into account 
sport-specific needs) as those provided to male athletes and shall use 
its best efforts to allocate lockers in numbers that reflect and are in 
proportion to the percentages of athletes that are male versus female.
    (2) To the extent that an athletic facility provides locker rooms 
or individual lockers for sports teams, PGCPS will ensure that they are 
provided equally to teams of both genders.
    (3) PGCPS will ensure that the proximity of teams' locker rooms to 
the facilities in which they practice/compete does not 
disproportionately burden teams of one gender.
    8. Training and Medical Services
    a. To the extent that PGCPS provides training and medical services 
to its athletes, it shall ensure that such services are provided 
equally to athletes of each gender.
    b. PGCPS will ensure that male and female athletes have equal 
access to and use of any weight-rooms or training facilities. PGCPS 
will also ensure that appropriate weights and other items are equally 
available to athletes of both genders. If PGCPS permits teams to 
schedule the exclusive use of a weight room for a certain time period, 
it shall ensure that permission to schedule exclusive use is granted 
equally to male and female teams and that teams of one gender do not 
monopolize the most popular times for use. Any such schedule will be 
posted and publicly available.
    c. To the extent that PGCPS provides off-season training or access 
to certain training facilities and services to its student-athletes, 
PGCPS will ensure that they are available equally to male and female 
athletes.
    9. Publicity
    a. PGCPS will provide equal amounts and quality of publicity to its 
male and female athletes.
    b. To the extent PGCPS provides the following types of publicity, 
it will do so equally for its male and female athletes
    (i) Information to the media;
    (ii) Media guides and other school sponsored materials;
    (iii) Announcement of athletics events or scores over a school's 
public announcement system;
    (iv) Printed competitive schedules;
    (v) Promotional events such as pep rallies;
    (vi) Displays of trophies, banners, and other marks of 
accomplishment;
    (vii) Cheerleading squads at competitive events, with the 
understanding and recognition that efforts will be made not to 
interfere with the squads' competitive events, as long as such efforts 
do not disproportionately advantage or disadvantage athletes of one 
gender; and
    (viii) Coverage of athletics teams in PGCPS yearbooks and other 
school-sponsored materials.
    10. Security
    PGCPS will provide its male and female athletes with equal levels 
of security and supervision at athletic competitions and events, based 
upon attendance, location (including location of off-campus home 
fields), day and time of the event, and other factors. In evaluating 
whether levels of security are equal, PGCPS shall consider that off-
campus home fields may require enhanced security.
    11. Educating and Training Employees About this Agreement
    The provisions of this agreement will be explained to all relevant 
PGCPS employees, including but not limited to the county supervisor of 
athletics, principals, athletics administrators, coaches, trainers, 
maintenance staff, and high school administrators. In addition, PGCPS 
will provide a training every other academic year, beginning the 2006-
07 academic year for all of the above groups of people about the 
requirements of this agreement and Title IX. The training will explain 
PGCPS-specific strategies for compliance with this agreement and Title 
IX.
IV. SELF-EVALUATION
    A. PGCPS will ensure the appointment of a county-wide Title IX 
Coordinator. PGCPS will also designate one person in each Regional 
Office to serve as a Title IX Regional Coordinator. The functions of 
these positions will be 1) to carry out the duties dictated by the 
Title IX Regulations; 2) to oversee the implementation of this 
Agreement; 3) and to serve as a liaison between students, staff, and 
administrators on all Title IX issues, including but not limited to, 
athletics. PGCPS will publish the name and contact information of each 
Title IX coordinator, taking all necessary steps to notify all 
students, parents, and employees of Title IX coordinators' identities 
and functions. In addition, this information will be posted and 
regularly updated on the PGCPS website.
    B. PGCPS must have a sex discrimination and sexual harassment 
policy and grievance procedure that meets the requirements of Title IX. 
PGCPS shall notify all middle and high school students, parents, and 
employees of its discrimination policy and grievance procedure. In 
addition, this information will be posted and regularly updated on the 
PGCPS website. Individuals who report instances of potential sex 
discrimination or non-compliance with Title IX's requirements will 
receive an additional copy of the grievance procedure.
    C. Beginning December 1, 2006, PGCPS will annually produce, 
publicize and post a report outlining the progress made towards serving 
the principles of this Agreement and Title IX (``progress report''). 
The reports will be delivered to the NWLC by December 1 of the 
reporting year. The NWLC will have 90 days to review the report and 
provide feedback to PGCPS. In the event that the report leads the NWLC 
to conclude that PGCPS is not meeting the terms of this Agreement, the 
NWLC will take steps to notify PGCPS in accordance with Section VI 
below. For the years that PGCPS produces an audit report in accordance 
with Section IV. D below, the reporting requirements of this section 
may be incorporated into the audit report. Each progress report will 
include an outline of:
    1. Steps taken and accomplishments (since the date of this 
Agreement or the previous year) to meet PGCPS' obligations to increase 
participation opportunities for females in accordance with this 
Agreement;
    2. Steps taken and accomplishments (since the date of this 
Agreement or the previous year) to meet PGCPS' obligations to ensure 
equality in the treatment of and benefits and services provided to 
female and male teams in accordance with this Agreement.
    3. A list of any complaints received alleging inequities between 
the girls' and boys' athletics programs or deficiencies in complying 
with this Agreement or Title IX;
    4. An outline of actions that will be taken to correct any 
identified deficiencies;
    5. An outline of PGCPS' plans under this Agreement for the upcoming 
academic year; and
    6. A copy of all procedures and policies adopted by the PGCPS Board 
of Education relating to gender equity.
    D. PGCPS will self-evaluate its compliance with this Agreement and 
Title IX by conducting an audit every other academic year beginning the 
2007-08 academic year, and by producing, publicizing and posting a 
report of the findings and conclusions (``audit report''). The audit 
report will be delivered to the NWLC by December 1 of that same 
academic year. The NWLC will have 90 days to review the report and 
provide feedback to PGCPS. In the event that the report leads the NWLC 
to conclude that PGCPS is not meeting the terms of this Agreement, the 
NWLC will take steps to notify PGCPS in accordance with Section VI 
below. Each audit report shall include:
    1. A full accounting, by each high school, and by the system as a 
whole, of: the student enrollment and athletic participation rates, 
broken down by gender; the expenditures of school-based or school-
controlled funds related to athletics, broken down by gender and 
category of expenditure (i.e., travel, publicity, etc.); the number of 
head coaches and assistant coaches per team, broken down by gender of 
the team and gender of the coach; and the name and gender of each 
school's and the county-wide athletic director or supervisor;
    2. A full accounting, by each high school, and by the system as a 
whole, of funds or in kind benefits received by each team, broken down 
by gender, from each of the following sources: 1) the school system, 2) 
game and concession receipts, 3) fundraising or boosters, 4) donations, 
5) the individual school's budget, 6) grants and 7) any other sources;
    3. The plans, if any, for expenditures of funds for the upcoming 
academic year for boys' and girls' teams by each high school and 
district-wide;
    4. An outline of the steps taken and accomplishments (since the 
date of this Agreement or last report) to meet PGCPS' obligations to 
increase participation opportunities for females in accordance with 
this Agreement (same as Section IV.C.1);
    5. An outline of steps taken and accomplishments (since the date of 
this Agreement or last report) to meet PGCPS' obligations to ensure 
equality in the treatment of and benefits and services provided to 
female and male teams in accordance with this Agreement (same as 
Section IV.C.2);
    6. In the event that NWLC has reason to believe that a Title IX 
compliance problem has arisen at one or more PGCPS middle schools, then 
NWLC may request in writing that the audit report obligations set forth 
in paragraphs 1, 2 and 3 of this Subsection IV.D. be expanded to 
specifically include information for the relevant middle school or 
middle schools. In the event of such a request, PGCPS shall thereupon 
include the requested audit information for the relevant middle school 
or schools in its next scheduled audit report.
    7. The format of the audit report is left to the discretion of 
PGCPS, provided that the selected format produces reasonably clear and 
comprehensible reports. PGCPS will make available a knowledgeable 
representative to answer any questions the NWLC or its designee might 
have regarding the reports.
V. NON-RETALIATION
    A. PGCPS and its agents will not retaliate against anyone for his/
her participation in investigating or reporting violations or potential 
violations of this Agreement or any Title IX matter. Prohibited 
retaliation against students includes, but is not limited to, reduction 
in playing time, refusal to provide letters of recommendation, or 
withholding of athletic awards. Prohibited retaliation against 
employees includes, but is not limited to, reduction in wages and/or 
benefits or changes in coaching/teaching assignments.
    B. PGCPS will take affirmative steps to inform its Board of 
Education members, administrators and employees that retaliation is 
illegal and against PGCPS policy. PGCPS will take disciplinary action 
against any such person found to be engaged in retaliatory conduct.
    C. PGCPS employees shall not take any action (directly or 
indirectly) to discourage, threaten, or otherwise dissuade girls from 
participating in any sport. Nor shall any PGCPS employee encourage 
(directly or indirectly) any other person to discourage, threaten, or 
otherwise dissuade girls from participating in any sport.
VI. ENFORCEMENT
    A. If the Title IX Coordinator or the NWLC suspects or learns that 
PGCPS has failed to meet any of the terms of this Agreement, its first 
step will be to notify PGCPS of this failing through correspondence. 
PGCPS will respond within 10 days to any such correspondence and will 
take the steps necessary to correct the problem(s). PGCPS will give 
notice to the NWLC of the steps it so takes.
    B. If the problem(s) remains unresolved within 90 days of the Title 
IX Coordinator or the NWLC's initial correspondence, and if the parties 
mutually agree, the parties may refer the dispute to mediation before a 
mediator agreed upon by the parties. Costs for any such mediation will 
be the responsibility of PGCPS.
    C. If mediation fails to provide an adequate resolution, or if the 
parties fail to agree to mediate, the parties reserve the right to seek 
a remedy in a court with jurisdiction over the matter in dispute. 
Maryland law shall govern this Commitment to Resolve.
    D. This Agreement will terminate on June 30, 2010, provided that 
PGCPS has timely fulfilled all of its obligations under this Agreement, 
except that PGCPS agrees that it is committed to continued full 
compliance with Title IX after the termination of this Agreement and 
that the periodic audits provided for in Section IV.D and the 
enforcement provisions in Section VI of this Agreement will survive 
termination.
            AGREED:
                               National Women's Law Center,
    Marcia D. Greenberger, Co-President; Neena K. Chaudhry, Senior 
                       Counsel; Fatima Goss Graves, Senior Counsel.
                     Prince George's County Public Schools,
                           Dr. John Deasy, Chief Executive Officer.
                                 ______
                                 
    Chairman Hinojosa. Thank you very much for your 
presentation.
    Ms. Layne.

 STATEMENT OF MARGARET EDITH LAYNE, PROGRAM DIRECTOR, ADVANCE 
VT, VIRGINIA TECH UNIVERSITY, ON BEHALF OF THE SOCIETY OF WOMEN 
                           ENGINEERS

    Ms. Layne. Mr. Chairman and members of the subcommittee, I 
am a past president of the Society of Women Engineers, a 20,000 
member educational and service organization committed to 
establishing engineering as a highly desirable career for 
women. I am currently employed as the Advance program director 
at Virginia Tech, but I would like you to know that I am 
speaking today on behalf of the Society of Women Engineers and 
not on behalf of my employer. I want to thank you for providing 
us opportunity to discuss how Title IX relates to science, 
technology, engineering and math, referred to as STEM fields, 
and the law's impact on STEM over the past 35 years. My 
comments will focus primarily on discrimination that still 
exists in the academic STEM community today and how Title IX 
can be used as a tool to increase the participation of women in 
engineering.
    Women's participation in STEM fields has increased 
considerably since Title IX was enacted. As you noted in your 
opening remarks, Mr. Chairman, in 1972, women earned only 28.8 
percent of STEM bachelors degrees. By 2004, that number 
increased to 49.2 percent. But the proportion of women varies 
widely among the individual STEM disciplines. Currently, women 
make up about 13 percent of the U.S. engineering work force, up 
from about 5.8 percent 25 years ago. The number of women 
earning engineering degrees in the United States increased 
dramatically following the passage of Title IX from around 2 
percent in 1975 to 15 percent in 1985.
    I witnessed that increase firsthand as an engineering 
student in the late 1970s. When I earned my first engineering 
degree in 1980, Ifully expected that increase to continue and 
for women engineers soon to no longer be unusual. When I found 
20 years into my engineering career that women were still only 
10 percent of the engineering work force, I decided to change 
careers and work full time on this problem so we won't still be 
talking about these same issues 20 years from now.
    Gains in women's share of bachelors and doctoral degrees in 
STEM disciplines have not translated into work place parody, 
particularly in academia. Women are fewer than one in five 
faculty members in computer science, math, engineering and the 
physical sciences. In engineering in particular, women account 
for just over one in ten faculty members and are concentrated 
in the more junior ranks. At Virginia Tech, only 6 of the 138 
faculty members holding the highest rank of professor in the 
College of Engineering are female. And we are not unusual in 
that regard. In fact, the American Society for Engineering 
Education reported in the fall of 2005, Virginia Tech had the 
third highest number of women in tenured and tenure track 
engineering in the U.S.
    At Virginia Tech, we found that 78 percent of male faculty 
but only 41 percent of female faculty believe that all faculty 
members are treated fairly regardless of gender. In an 
interview, a male engineering faculty member told us that the 
way women are treated in his department is a big issue. He 
said, quote, I am friends with many of the women. They tell me 
stories about what's been going on. I can scarcely believe what 
people say to them.
    These findings are, again, not unique to Virginia Tech. A 
National Academy of Sciences study highlights the issues that 
impede women's progress in STEM. The report, ``Beyond Bias and 
Barriers: Fulfilling the Potential of Women in Academic Science 
and Engineering,'' points out that both bias and structural 
barriers built into academic institutions and occupation of 
professor limits many women's ability to be hired and promoted. 
It also notes that women faculty are slower to gain promotion 
than men, are less likely to reach the highest academic rank, 
have lower salaries and are awarded less grant money than their 
male colleagues.
    A 2004 GAO report requested by Senators Wyden and Boxer 
revealed that many educational institutions can't show 
compliance with the most basic requirements of Title IX. 
Following the report, NSF and NASA conducted Title IX reviews 
of a few STEM departments during 2006. While these selective 
reviews are a start, more widespread and systematic reviews are 
needed. Mr. Chairman and members of the subcommittee, in many 
ways, the story of women and STEM is a positive one. Women are 
making progress in STEM education and careers, although more 
slowly than we would like. And societal and institutional 
factors that slow women's advancement can be overcome with 
continued attention and tools such as Title IX.
    Therefore, I would like to make the following 
recommendations: Conduct oversight hearings and call for 
enhanced agency enforcement, particularly an increase in the 
number and frequency of compliance reviews to ensure that 
federally funded education programs provide equal access and 
opportunity to all students and make those reviews available to 
the public. Authorize and fund a comprehensive public education 
campaign to raise awareness of Title IX and the importance of 
gender equity in education among students, parents, teachers 
and administrators. Increase funding for programs that focus on 
attracting and retaining women and girls to nontraditional and 
STEM careers and removing institutional barriers to their 
success. Thank you again for the opportunity to present our 
views today.
    [The statement of Ms. Layne follows:]

Prepared Statement of Margaret Edith Layne, P.E., Past President of the 
                       Society of Women Engineers

    Mr. Chairman and Members of the Subcommittee: Good morning. My name 
is Peggy Layne. I am a Past President of the Society of Women Engineers 
(SWE), and I am currently employed as the ADVANCE Program Director at 
Virginia Tech. ADVANCE is a National Science Foundation funded program 
to increase the number and success of women faculty in the sciences and 
engineering. I am speaking today on behalf of the Society of Women 
Engineers (SWE) and not on behalf of my employer or the National 
Science Foundation.
    I want to thank the Subcommittee for providing me with this 
opportunity to discuss how Title IX relates to science, technology, 
engineering, and mathematics (referred to as STEM) fields, and the 
law's impact on STEM over the past thirty-five years. My comments will 
focus primarily on the discrimination that still exists in the academic 
STEM community today, and how Title IX can be used as a tool to 
increase the participation of women in engineering.
    SWE is a 20,000 member educational and service organization that is 
committed to establishing engineering as a highly desirable career 
aspiration for women. Currently, women make up approximately 13% of the 
U.S. engineering workforce, or 200,000 engineers, which is up from 5.8% 
25 years ago.\i\ The proportion of women, however, has remained 
relatively flat for the past ten years, and women represent only 10.6% 
of the faculty in U.S. engineering schools today.\ii\
    In January of 2005, Harvard president Lawrence Summers suggested 
that ``intrinsic aptitude'' might help to explain why few women reach 
the highest ranks of STEM careers in academia. While the ensuing media 
storm brought much needed attention to the under-representation of 
women in STEM, fascination with perceived differences in men's and 
women's brains unfortunately diverted attention from what evidence 
shows to be the all too real culprits: socialization and 
discrimination.
    Women's participation in the STEM fields has increased considerably 
since Title IX was enacted. In 1972, women earned 28.8% of STEM 
bachelor's degrees, and by 2004, they earned 49.2%, with differing 
proportions within the individual STEM disciplines. Women's share of 
STEM doctorate degrees more than tripled over that time, with women 
earning only 11.1% of STEM-related doctorates in 1972, but 37.4% in 
2004.\iii\
    Overall, women now comprise nearly 60 percent of all undergraduate 
college students, and nearly half of all master's, doctoral, law and 
medical students.\iv\ Women still remain under-represented in 
engineering and the physical sciences, however, earning only 20 percent 
of all bachelor's degrees granted in engineering and physics, and a 
decreasing share of bachelor's degrees in mathematics and computer 
science.\v\ Although women's share of STEM degrees earned still lags 
men's, the number of women in STEM fields has steadily increased over 
the past 35 years, while the number of men earning STEM degrees has 
remained constant over the same period of time.\vi\
    Despite this progress, stigmatizing and stereotyping behaviors 
regarding girls' abilities in STEM persist. Attrition along the 
pipeline still has much to do with a culture that presents obstacles to 
the success of women and girls. Although the obstacles are becoming 
more subtle than the overt discrimination of the past, girls continue 
to receive less attention in K-12 mathematics and science courses; 
undergraduate women transfer out of STEM fields before graduating 
because of unsupportive classroom environments characterized by lack of 
role models, a limited peer group, and outdated pedagogy; and women 
scientists and engineers earn less and advance more slowly than men in 
both academia and the private sector.\vii\ And while some of these 
differences could result from personal choices, the culture of STEM 
fields too often creates circumstances that isolate and exclude girls 
and women, dissuading them from pursuing these careers.
    The number of women earning engineering degrees in the United 
States increased dramatically following the passage of Title IX, from 
around 2% in 1975 to 15% in 1985.\viii\ I witnessed that increase first 
hand as an engineering student in the late 1970s. When I earned my 
first engineering degree in 1980, I fully expected that increase to 
continue and for women engineers to no longer be an anomaly by the time 
I reached the midpoint of my career. If women's participation in 
engineering had continued to increase at that same rate for the last 25 
years, I would not be speaking to you today. Women engineers would be 
commonplace in the workforce, and when I introduce myself, I would no 
longer be told that ``you don't look like an engineer.'' When I found 
that 20 years into my engineering career women were still only 10% of 
the engineering workforce in the U.S., I decided to change career paths 
and work full time on this problem, so we would not be here talking 
about these same issues again twenty years from now.
    I am now the ADVANCE Program Director at Virginia Tech, in 
Blacksburg, Virginia. Virginia Tech is the recipient of an ADVANCE 
Institutional Transformation grant from the National Science 
Foundation. The ADVANCE program is designed to support innovative and 
comprehensive programs for institution-wide change that promotes the 
increased participation and advancement of women scientists and 
engineers in academe. The ADVANCE program at Virginia Tech recognizes 
that there are structures, policies, and practices at academic 
institutions that inherently disadvantage women, and seeks to create a 
more equitable environment for women faculty.
    At the university level, gains in women's attainment of bachelor's 
and doctoral degrees in STEM disciplines still have not translated into 
workplace parity--particularly in academia. Women represent fewer than 
one in five faculty members employed in computer science, mathematics, 
engineering and the physical sciences. In engineering in particular, 
women account for just over one in ten faculty members, and are 
concentrated in the more junior ranks of the faculty.\ix\ At Virginia 
Tech, only six of the 138 faculty members holding the highest rank of 
professor in the College of Engineering are female, and we are not 
unusual in that regard. In fact, the American Society for Engineering 
Education reported that in the fall of 2005 Virginia Tech had the third 
highest number of women in tenured and tenure track engineering faculty 
positions in the U.S.\x\
    Through our research at Virginia Tech, we have found that while 94% 
of the male faculty believe that their department is supportive of the 
success of women faculty, only 75% of those women agree. Seventy-eight 
percent of male faculty, but only 41% of female faculty believe that 
faculty members are treated fairly regardless of gender. When it comes 
to balancing professional success with personal obligations, 75% of 
women believe that it is difficult to be promoted or earn tenure and 
have a personal life, compared with 55% of the men.
    A female faculty member stated in a focus group that ``Expectations 
at this university are built around men who have stay-at-home wives.'' 
In an interview, a male faculty member told us that the way women are 
treated in his department is a big issue. He said, ``I am friends with 
many of the women. They tell me stories about what has been going on. I 
can scarcely believe what people say to them.'' These findings are 
again not unique to Virginia Tech, but are consistent with data 
reported by the American Association of University Professors in their 
report, AAUP Faculty Gender Equity Indicators 2006.\xi\
    A National Academy of Sciences study further explores the issues 
that impede women's progress in STEM. The report, entitled Beyond Bias 
and Barriers: Fulfilling the Potential of Women in Academic Science and 
Engineering, points out that ``both bias and structural barriers built 
into academic institutions and the occupation of professor limit many 
women's ability to be hired and promoted.'' \xii\ The report notes that 
women faculty are slower to gain promotion than men, are less likely to 
reach the highest academic rank, and have lower salaries and are 
awarded less grant money than their male colleagues. In fact, as 
recently as the period from 2001 to 2003, female grant applicants 
received only 63% as much funding as male applicants at the National 
Institutes of Health (NIH).\xiii\
    Sex discrimination also exists in academia with regard to 
laboratory space, compensation, access to grants, and leave policies. 
While not always deliberate, this discrimination can be undeniable. In 
the late 1990s, Dr. Nancy Hopkins, a professor of molecular biology at 
the Massachusetts Institute of Technology (MIT), requested an extra 200 
square feet of lab space. When her request was denied and she learned 
her lab was actually 1,500 square feet smaller than those of her male 
counterparts, she realized that discrimination still existed and became 
an advocate at MIT for change.\xiv\ Through Dr. Hopkins' efforts and 
those of many other individuals and committees, educational 
institutions are beginning to address these inequities. The 
accumulation of such small, lingering day-to-day inequities, however, 
ultimately results in a significant overall equity gap, as documented 
by Professor Virginia Valian in her book Why So Slow? The Advancement 
of Women.\xv\
    In response to Professor Hopkins' findings, MIT took action to 
identify and address inequities and increase the hiring of women 
faculty, and those actions drew national attention in 2001, but last 
year when Professor Hopkins looked at the impact of those actions she 
saw that women had made progress for a few years but that progress 
stalled following the departure of a particular administrator.\xvi\ 
MIT's experience emphasizes why continued attention to these issues is 
critical to removing the entrenched barriers to women's participation 
in science and engineering careers.
    A 2004 GAO report requested by Senators Ron Wyden (D-OR) and 
Barbara Boxer (D-CA) revealed that many educational institutions cannot 
show compliance with the most basic requirements of Title IX. The 
report, entitled Gender Issues: Women's Participation in the Sciences 
Has Increased, but Agencies Need to Do More to Ensure Compliance with 
Title IX, looked at Title IX compliance practices at three federal 
agencies that support significant basic research in the STEM 
disciplines: the National Science Foundation (NSF), Department of 
Energy (DOE), and National Aeronautics and Space Administration (NASA), 
as well as the Department of Education (DOEd).\xvii\ The report pointed 
out that these agencies have not fulfilled their statutory obligations 
to ensure that grant recipients comply with Title IX. Furthermore, the 
report noted that grant recipients cannot prove compliance with even 
the most basic of Title IX requirements.\xviii\ Moreover, because the 
responsibility for gathering compliance data rests with the individual 
granting agencies, there is no centralized way to determine whether a 
particular school has conducted the required self-assessment, and no 
cross-agency standard for what a self-assessment should look like. 
Instead, when granting funding, federal agencies tend to accept as 
proof of compliance the educational institution's own pro forma 
statement that merely attests to the fact that the educational 
institution complies with Title IX in all respects.\xix\ Additionally, 
the report pointed out that female faculty and students do not file 
Title IX complaints against their institutions either because they 
believe Title IX applies only to athletics, or because they fear 
retribution.\xx\
    In the wake of the GAO report, NSF and NASA began to conduct Title 
IX reviews of STEM departments at postsecondary institutions during 
2006. While these selective reviews are a start and may uncover 
interesting information relevant to the institutions involved, more 
widespread and systematic reviews are needed to bring about change on 
the scale necessary to increase the percentage of women in STEM fields. 
In particular, such reviews should focus on the culture and climate of 
relevant STEM departments to understand whether women and men face 
different barriers to success.
    Mr. Chairman and Members of this Subcommittee: In many ways, the 
story of women in STEM is a positive one. Women are making progress in 
STEM education and careers, although more slowly that we would like, 
and the societal and institutional factors that slow women's 
advancement can be overcome with continued attention and tools such as 
Title IX.
    Title IX cannot (and should not) correct for the personal choices 
that lead women and girls to select certain fields of study. The law 
can and must, however, address barriers to pursuing educational 
programs that reflect individual interests and abilities. Proper 
enforcement of and compliance with the law will help to create 
conditions that allow women and girls the opportunity to succeed in 
STEM fields by eliminating conduct and practices that disadvantage 
students or employees on the basis of their gender.
    The persistent discrimination against women and girls in STEM, 
coupled with widespread concerns about American competitiveness in the 
global marketplace, demonstrate that enforcement of Title IX in these 
fields is critical. Thus far, too little has been done to realize the 
promise of this law in the area of STEM. Therefore, we would like to 
recommend the following policy recommendations to you:
    <bullet> Conduct oversight hearings and call for enhanced agency 
enforcement, particularly an increase in the number and frequency of 
compliance reviews conducted by the U.S. Department of Education's 
Office for Civil Rights to ensure that federally-funded education 
programs provide equal access and opportunity to all students. Then 
make those reviews available to the public to ensure transparency of 
process.
    <bullet> Authorize and fund a comprehensive public education 
campaign to raise awareness of Title IX and the importance of gender 
equity in education among students, parents, teachers, and 
administrators.
    <bullet> Increase funding for programs that focus on attracting and 
retaining women and girls to non-traditional and STEM careers and 
removing institutional barriers to their success.
    Thank you again for the opportunity to present our views.
                                endnotes
    \i\ National Science Foundation, Division of Science Resources 
Statistics, Women, Minorities, and Persons with Disabilities in Science 
and Engineering: 2004, NSF 04-317 (Arlington, VA, 2004).
    \ii\ Gibbons, Michael T. A Year in Numbers 2005, American Society 
for Engineering Education.
    \iii\ Commission on Professionals in Science and Technology. Four 
Decades of STEM Degrees, 1966-2004: The Devil is in the Details. STEM 
Workforce Data Project: Report No. 6. https://www.cpst.org/STEM/STEM6--
Report.pdf.
    \iv\ Ibid
    \v\ National Science Foundation, Division of Science Resources 
Statistics, Women, Minorities, and Persons with Disabilities in Science 
and Engineering: 2004, NSF 04-317 (Arlington, VA, 2004).
    \vi\ Ibid
    \vii\ National Academies of Science. Beyond Bias and Barriers: 
Fulfilling the Potential of Women in Academic Science and Engineering: 
2006, National Academies Press (Washington, D.C., 2006).
    \viii\ Commission on Professionals in Science and Technology. Four 
Decades of STEM Degrees, 1966-2004: The Devil is in the Details. STEM 
Workforce Data Project: Report No. 6. https://www.cpst.org/STEM/STEM6--
Report.pdf.
    \ix\ Gibbons, Michael T. ``A Year in Numbers 2005'', American 
Society for Engineering Education.
    \x\ Gibbons, Michael T. ``A Year in Numbers 2005'', American 
Society for Engineering Education.
    \xi\ American Association of University Professors, AAUP Gender 
Equity Indicators 2006.
    \xii\ National Academies of Science. Beyond Bias and Barriers: 
Fulfilling the Potential of Women in Academic Science and Engineering: 
2006, National Academies Press (Washington, D.C., 2006).
    \xiii\ The Rand Corporation. Gender Differences in Major External 
Federal Grant Programs: Technical Report sponsored by NSF 2005.
    \xiv\ Rimer, Sarah. ``For Women in Sciences, Slow Progress in 
Academia,'' New York Times. http://www.nytimes.com/2005/04/15/
education/15women.html?ex=1271217600&en=e5322d3fd78dddf3&ei=5088&partner
=rssnyt&emc=rss
    \xv\ Valian, Virginia. Why So Slow? The Advancement of Women, MIT 
Press: 1998.
    \xvi\ Hopkins, Nancy. ``Women's Gains in Sciences at MIT Have 
Stalled, Study Finds.'' Chronicle of Higher Education, April 28, 2006
    \xvii\ U.S. G.A.O., Women's Participation in the Sciences Has 
Increased, but Agencies Need to Do More to Ensure Compliance with Title 
IX, GAO-04-639 (Washington, DC, 2004).
    \xviii\ Ibid
    \xix\ Ibid.
    \xx\ Ibid.
                                 ______
                                 
    Chairman Hinojosa. Thank you. Thank you for your 
presentation. Now I would like to call on Mr. Eric Pearson.

  STATEMENT OF ERIC PEARSON, CHAIRMAN, COLLEGE SPORTS COUNCIL

    Mr. Pearson. Thank you, Chairman Hinojosa, Ranking Member 
Keller, and all members of the committee. I would like to thank 
you for giving me this opportunity today to share with you the 
College Sports Council's concerns about Title IX. I have been 
invited here today to discuss Title IX and its impact on 
collegiate sports. However, any discussion of Title IX must 
first acknowledge the fact that there is a widening disparity 
between the enrollment rates of male and female students in our 
Nation's colleges and universities. This gender disparity is 
most severe among our African American and Hispanic 
communities. For example, our Nation's historically Black 
colleges and universities have enrollment ratios averaging in 
the range of 65 percent female to 35 percent male. This gender 
disparity creates very real problems for schools trying to 
dutifully comply with the current regulations governing Title 
IX. The CSCfully supports the spirit of Title IX. We don't want 
anyone to be discriminated on the basis of their gender.
    The CSC takes issue only with how the law has been 
regulated, or more precisely, we are critical of the 
proportionality prong of the three-part test. A school is 
deemed to be in compliance with proportionality if the gender 
ratio of its intercollegiate athletes mirrors its undergraduate 
student enrollment. In most athletic departments, male athletes 
are the majority; yet most schools have a student body that is 
majority female, hence the dilemma. Pressure to achieve 
proportionality places incentives on college administrators to 
decrease the number of their male athletes. As a result, we are 
witnessing an unrelenting decimation of men's sports programs. 
Just in the last year, James Madison University announced that 
it would eliminate ten teams in order to bring its athletic 
department in line with proportionality. Other schools, like 
Rutgers University, Slippery Rock and Ohio University, have 
also recently instituted cuts of multiple teams.
    Since 1996, proportionality has been recognized as the safe 
harbor for complying with Title IX. Every time someone mentions 
a school is out of compliance, whether right or wrong, 
proportionality is almost always referenced as the measure of 
noncompliance. A case in point is the report card recently 
created by the Women's Sports Foundation. It rates schools 
assigning letter grades based on proportionality alone.
    Unfortunately, HBCU member schools rate poorly. For 
example, Howard University, located here in the District of 
Columbia, received an F grade. Howard University is typical of 
most of the HBCU member schools. Its undergraduate ratio is 67 
percent female. In 2002, Howard eliminated its baseball and 
wrestling programs despite offers from its alumni to help with 
funding. As a result of proportionality, opportunities for 
young male students to play sports are being severely limited. 
For example, there is only one NCAA division one men's soccer 
team in the entire state of Texas despite its popularity at the 
scholastic and club levels. Funding is frequently cited as the 
reason for these limitations. But from the CSC's experience 
this simply is not the case. CSC is regularly contacted by 
athletes and former athletes who would like to start and fully 
fund teams for male students. But they are told by school 
administrators that proportionality prevents them from adding 
any men's teams. The sport of football sometimes cited as the 
root of all the problems, but fully 41 percent of the member 
schools in the NCAA don't even sponsor football teams.
    In addition, among the NCAA Division 1A schools that are 
considered the big time programs, there are only 118 football 
teams, which represents only 11 percent of the total of NCAA 
schools. Therefore, it is unfair and untrue to say that all the 
problems of Title IX compliance are due to football. Title IX 
was never intended to limit participation. When you speak with 
coaches of women's teams, they will tell you that what they 
want is to have equal access to facilities, equivalent funding 
for their teams, good locker rooms, uniforms and sufficient 
travel budgets. They are not interested in how many players are 
on the men's rosters. And they certainly don't want to see 
teams eliminated.
    We believe that reform of Title IX can go hand in hand with 
efforts to increase enrollment of male students on campus. If 
schools like those included among the HBCUs didn't have to 
worry about proportionality, they could use athletics to 
attract more male students to their campuses rather than 
narrowing down opportunities for male athletes.
    With slight modification, a solution may be found in the 
third prong of Title IX's three-part test which already has an 
interest and abilities component. Currently the regulations 
only protect the interest of the underrepresented gender, in 
other words the female athletes. The CSC recommends that male 
students also be included in any and all measurements of 
interest. Through regular student surveys, athletes should be 
given a voice of record and a degree of influence in the 
process that determines the a school's sports sponsorship. 
Reforming prong three of Title IX will create incentives not 
only to retain programs but also to add new teams.
    The current system of Title IX enforcement is 
unsustainable. If left unchanged, we will continue to see the 
widespread limitation of athletic opportunity for male 
athletes. In the end, the harm done to male students will 
continue to disproportionately affect those athletes from our 
minority communities.
    In closing, I would like to say, it has been 35 years since 
Title IX was passed into law. And the environment of today's 
college campuses is very different from the era of the 1970s. 
Female undergraduate enrollment now surpasses male enrollment. 
And today, NCAA schools sponsor over 1,000 more teams for women 
than they do for men. Thank you very much.
    [The statement of Mr. Pearson follows:]

  Prepared Statement of Eric Pearson, Chairman, College Sports Council

    Chairman Hinojosa, Ranking member Keller, and all members of the 
Committee, I would like to thank you for giving me this opportunity to 
speak today, and share with you the College Sports Council's (CSC) 
concerns about Title IX.
    The CSC is a national coalition of coaches, athletes, parents, and 
former athletes founded in 2002. The majority of our members are 
involved with the traditional Olympic sports of track and field, 
swimming, wrestling, and gymnastics. We are devoted to the preservation 
and promotion of the student athlete experience. We place the highest 
value on the opportunity to participate in organized athletics, and we 
measure the overall state of health of America's sports system by the 
total number of participants involved. In our view, the more students 
that get to play, the better.
    I have been invited here today to discuss Title IX, and its impact 
on collegiate sports. However, any discussion of Title IX must first 
acknowledge the fact that there is a widening disparity between the 
overall enrollment rates of male and female students in our nation's 
colleges and universities. This gender disparity is most severe among 
our African American and Hispanic communities. For example, our 
nation's Historically Black Colleges and Universities (HBCU) have 
enrollment ratios averaging in the range of 65% female to 35% male. 
This gender disparity creates very real problems for schools trying to 
dutifully comply with the current regulations governing Title IX.
    The CSC fully supports the spirit of Title IX. We don't want anyone 
to be discriminated against on the basis of their gender. The CSC takes 
issue only with how the law has been regulated, or more precisely, we 
are critical of the proportionality prong of the three-part test. A 
school is deemed to be in compliance with proportionality if the gender 
ratio of its intercollegiate athletes mirrors its undergraduate student 
enrollment.
    In most athletic departments male athletes are the majority, yet 
most schools have a student body that is majority female, hence the 
dilemma. Pressure to achieve proportionality places incentives on 
college administrators to decrease the numbers of their male athletes. 
As a result, we are witnessing an unrelenting decimation of men's 
sports programs.
    Just in the last year, James Madison University announced that it 
would eliminate 10 teams in order to bring its athletic department in 
line with proportionality. Other schools like Rutgers University, 
Slippery Rock, and Ohio University have also recently instituted cuts 
of multiple teams.
    Since 1996, proportionality has been recognized as the `safe 
harbor' for complying with Title IX. Every time someone mentions that a 
school is out of compliance, whether right or wrong, proportionality is 
almost always referenced as the measure of non-compliance. A case in 
point is the report card recently created by the Women's Sports 
Foundation. It rates schools, assigning letter grades based on 
proportionality alone. Unfortunately, HBCU member schools rate poorly. 
For example, Howard University, located here in the District of 
Columbia, received an `F' grade. Howard University is typical of most 
of the HBCU members. Its undergraduate ratio is 67.1% female. In 2002, 
it eliminated its baseball and wrestling programs, despite offers from 
its alumni to help with funding.
    Athletic administrators are often praised for pursuing a `gender 
equity' plan even if it merely consists of the elimination of teams and 
the limitation of men's squad sizes. The current environment of Title 
IX compliance creates incentives to drive male students away from 
athletic programs, shrink squad sizes, and drop teams entirely.
    As a result of proportionality, opportunities for young male 
students to play sports are being severely limited. For example, there 
is only one NCAA Division I men's soccer team in the entire state of 
Texas despite its growing popularity at the scholastic and club level. 
Funding is frequently cited as the reason for these limitations, but 
from the CSC's experience this simply is not the case. The CSC is 
regularly contacted by athletes and former athletes who would like to 
start and fully fund teams for male students, but are told by school 
administrators that proportionality prevents them from adding any men's 
teams.
    The sport of football is sometimes cited as the root of all 
problems, but fully 41% of the member schools in the NCAA don't even 
sponsor football teams. In addition, among the NCAA Division IA schools 
that are considered the `big time' programs, there are only 118 
football teams, which represents only 11% of the total of NCAA schools. 
Therefore, it is unfair and untrue to say that all the problems with 
Title IX compliance are due to football.
    In addition to the outright elimination of men's teams, and the 
refusal to add new teams, administrators have developed other 
strategies designed to reduce the number of male participants in their 
athletic departments. One notorious practice is commonly referred to as 
`roster management.' It is a strict limit placed on male teams only. It 
is important to understand that these squad caps are created by 
administrators, not by the coaches of these teams. In most sports, 
men's coaches prefer to be inclusive, allowing participation to all who 
want to try out as long as they respect the rules of the program.
    Administrators like to justify the practice of `roster management' 
by saying that they are managing their resources by managing the squad 
sizes. But this practice is not, by any means, gender neutral. It is 
not uncommon to see a men's swimming or track team given strict limits, 
while their female counterparts are asked to inflate their rosters. 
Women's coaches don't like this practice either, because it interferes 
with the control that they have over their teams, especially with the 
problem athletes who they'd prefer to cut. There is no more clear cut 
example of discrimination on the basis of gender than the practice of 
`roster management.'
    Title IX was never intended to limit participation. When you speak 
with coaches of women's teams they will tell you that they want to have 
equal access to facilities, equivalent funding for their teams, good 
locker rooms, uniforms, and sufficient travel budgets. They are not 
interested in how many players are on the men's rosters, and they 
certainly don't want to see teams eliminated.
    We believe that reform of Title IX can go hand in hand with efforts 
to increase enrollment of male students on campus. If schools, like 
those included among the HBCUs, didn't have to worry about 
proportionality, they could use athletics to attract more male students 
to their campuses, rather than narrowing down opportunities for male 
athletes.
    With slight modification, a solution may be found in the third 
prong of Title IX's three-part test, which already has an interest and 
abilities component. Currently, the regulations only protect the 
interest of the underrepresented gender, in other words, the female 
athletes. The CSC recommends that male students also be included in any 
and all measurements of interest. Through regular student surveys, the 
athletes would be given a voice of record, and a degree of influence in 
the process that determines a school's sports sponsorship. Reforming 
prong three of Title IX will create incentives to not only retain 
programs, but also to add new teams.
    In the present system, the athletes have no real power over the 
decisions that impact the very existence of their programs. Just look 
at the protests on campuses across the country where sports teams have 
been dropped. Fresno State, Rutgers, and James Madison University have 
all recently dropped programs despite the outcries of students, both 
male and female, who don't want to see athletic teams terminated.
    The current system of Title IX enforcement is unsustainable. If 
left unchanged, we will continue to see the widespread limitation of 
athletic opportunity for male athletes. In the end, the harm done to 
male students will continue to disproportionately affect those athletes 
from our minority communities.
    In closing, I'd like to say that it's been 35 years since Title IX 
was passed into law, and the environment of today's college campus is 
very different from the era of the 1970's. Female undergraduate 
enrollment now surpasses male enrollment, and today NCAA schools 
sponsor over 1,000 more teams for women than they do for men. We cannot 
overlook this significant change if we want to create a more fair and 
reasonable system to comply with Tile IX, one that continues to protect 
young women from discrimination, but doesn't harm young men.
    Again, I thank you for including the CSC in this very important 
dialogue.
                                 ______
                                 
    Chairman Hinojosa. Thank you, Mr. Pearson.
    Now I would like to call on Dr. Rita Simon.

  STATEMENT OF RITA J. SIMON, UNIVERSITY PROFESSOR, AMERICAN 
                           UNIVERSITY

    Ms. Simon. Thank you very much for the opportunity to 
testify today before the committee. In my capacity as a member 
of the Title IX Commission and as a strong supporter of the 
principle of equal opportunity for boys and girls to 
participate in collegiate sports, I strongly urge the 
collection of systematic information on the interest, desires 
and plans of high school boys and girls to participate in 
athletic programs when they become university students.
    I should say, as a sociologist, I believe very strongly in 
the collection of empirical data to help assess and resolve 
public policy issues. Now, what I mean by the collection of 
systematic information is the sending out of surveys on a 
regular basis to a random sample of high schools throughout the 
country. For example, surveys should be sent from State 
universities to a sample of high schools in that State at the 
beginning of the academic year. The high schools will then 
distribute the questionnaires to boys and girls who have just 
entered their senior year. The questionnaires would contain a 
series of items on a respondent's interest and their 
participation in athletics. They would be asked to indicate 
whether they have been and are currently involved in any kinds 
of high school sports; swimming, track, basketball, et cetera. 
Are they on the school's team in some sport?
    The next series of questions would ask about future plans 
and hopes. Respondents would be asked if they plan to go on to 
college after high school graduation. The completed surveys 
would be divided into two categories, boys and girls. The 
responses will tell us the percentage of boys and girls who do 
participate in athletic programs in their high schools and the 
specific sports that they play. And the percentage by gender 
who would like to participate in athletics at the collegiate 
level. What percentage plan to apply for an athletic 
scholarship and for what sport? The questionnaire responses 
will provide us with empirical data about the overall 
percentage of boys and girls who are interested in and plan to 
participate in collegiate sports. Other responses close to the 
50 percent in scholarships that have been set aside for full 
time boy and girl undergraduates, are the responses more like 
70 percent boys and 30 percent girls who express interest or 65 
percent girls and 35 percent boys who express interest in 
athletics. And for the different sports, what percentage of 
boys and girls express interest in participating, what 
percentage would like to be on swim teams, wrestling teams, 
basketball teams, tennis, et cetera. Now, I do not claim that 
the survey results should determine university policies. But I 
do strongly urge that the findings be taken into account. The 
survey results would be the only empirical data that the 
universities have about the relative interests and plans of 
incoming freshman boys and girls.
    Now, this is very important. The surveys should not be a 
one-time event. They should be sent out on a regular yearly 
basis for the foreseeable future. And if I might just add a few 
more details. Probably what we are talking about is, when I say 
a random sample of high schools, perhaps 150 high schools in 
the country; the largest high school in any given State, the 
high school in a major urban center and a high school in a 
rural area. As to who will administer the surveys, it could be 
an independent survey research center, perhaps the Department 
of Education, the Office of Civil Rights, et cetera. Who will 
analyze the data, and who will write the report? Again, these 
can be independent researchers or the staff of the Civil Rights 
Commission or what have you. And what I strongly want to 
emphasize is that the survey data may show that the issue is 
not discrimination against women, but the need to publicize 
athletic programs that women can apply for, can be involved 
with and arouse greater interest on the part of women to 
participate in collegiate sports. Thank you very much.
    [The statement of Ms. Simon follows:]

  Prepared Statement of Rita J. Simon, University Professor, American 
                               University

    In my capacity as a member of the Title IX Commission and as a 
strong supporter of the principle of equal opportunity for girls and 
boys to participate in collegiate sports, I strongly urge the 
collection of systematic information on the interests, desires, and 
plans of high school boys and girls to participate in athletic programs 
when they become university students.
    By systematic information I mean the sending out of surveys on a 
regular basis to a random sample of high schools throughout the 
country. For example, surveys should be sent from state universities to 
a sample of high schools in that state at the beginning of the academic 
year. The high schools would then distribute the questionnaire to boys 
and girls who have just entered their senior year. The questionnaire 
would contain a series of questions on the respondent interests and 
participation in athletics. They would be asked to indicate whether 
they have been and are currently active in some sport: i.e. track, 
basketball, swimming, etc. Are they on the school's team or do they 
play with friends on a regular basis? The next series of questions 
would ask about future plans and hopes. Respondents would be asked if 
they plan to go to college after high school graduation.
    The completed surveys will be divided into two categories: boys and 
girls. The responses will tell us the percentages of boys and girls who 
participate in athletic programs in high school (the specific sports) 
and the percentages by gender who would like to participate in 
athletics at the collegiate level. What percentage plan to apply for an 
athletic scholarship and for what sport?
    The questionnaire responses will provide us with empirical data 
about the overall percentage of boys and girls who are interested in 
and plan to participate in collegiate sport. Are the responses close to 
the 50 percent in scholarships that have been set aside for full time 
boy and girl undergraduates? Are the responses more like 70 percent 
boys and 30 percent girls who express interest or 65 percent girls and 
35 percent boys with athletic interest? And for the different sports, 
what percentage of boys and girls express interest in participating, 
eg. what percentage would like to be on swim teams, wrestling teams, 
basketball, tennis, etc.?
    I do not claim that the survey results should determine university 
policies, but I do strongly urge that the findings be taken into 
account. The survey results would be the only empirical data that the 
universities would have about the relative interests and plans of 
incoming freshmen boys and girls.
    These surveys should not be a one time event. They should be sent 
out on a regular yearly basis for the foreseeable future.
                                 ______
                                 
    Chairman Hinojosa. Thank you very much, Dr. Simon.
    Having heard from all of the witnesses, we are now going to 
start a line of questioning. And I give myself 5 minutes. My 
first question is to Commissioner Jack Mowatt. Your efforts 
seem to be having an effect as a model in Prince George's 
County. Can you tell us if the Maryland State Department of 
Education or even the U.S. Department of Education, are they 
supporting your efforts? If so, how?
    Mr. Mowatt. I guess what is happening here with the Title 
IX agreement in Prince George's County is, I would say that it 
is going to be supported by everybody because it is a great 
role model for the entire country. And a lot of things have 
been done in the last year for these fields. And there are 
other counties in the State of Maryland that need to be done 
and probably around the county also.
    Chairman Hinojosa. Dr. Simon, your testimony suggests 
sending out surveys regularly.
    Ms. Simon. Yes?
    Chairman Hinojosa. To a random sample of high schools 
throughout the country.
    Ms. Simon. Yes?
    Chairman Hinojosa. Do you envision the Secretary of 
Education doing this, and have you proposed it to Secretary 
Spellings?
    Ms. Simon. When I served on the Title IX Commission, this 
was something that we did discuss. My memory is, I am not 
positive, that many members of the commission also strongly 
supported the idea of surveys. And people on the Civil Rights 
Commission, I know Jerry Reynolds for example, very strongly 
supported the idea.
    Chairman Hinojosa. Would you support Congress passing some 
type of an amendment that would require the Department of 
Education to do this?
    Ms. Simon. Yes.
    Chairman Hinojosa. Thank you.
    Eric Pearson, many pro-Title IX advocates tell us that the 
Department of Education does a very poor job of enforcing 
compliances with the regulations. However, you indicated that 
the current system of Title IX is unsustainable. Is your point 
that there is too much or too little enforcement?
    Mr. Pearson. Mr. Chairman, first of all, I would like to 
say, College Sports Council is a pro-Title IX group. We do 
support Title IX. We don't believe anybody should be 
discriminated on the basis of gender. We are a pro-reform 
group. But whether there is too much enforcement or too little, 
I think that question has to be narrowed down to how you 
enforce. For example, Mr. Mowatt's testimony, there are many 
things that we agree with in his testimony. For example, the 
fair access to facilities, equal access to equivalent 
facilities, equivalent funding; those things are all very 
important, and we support that. My concern and our concern as 
an organization is, if we focus only on proportionality, 
inevitably it incentivizes administrators to decrease the 
opportunities for male athletes to compete.
    Chairman Hinojosa. Do you remember that the gap is so big 
that, unless we leap frog the improvement, we will not see that 
there will be fair opportunity and equality for young women? It 
seems to me that, listening to the testimony and what we hear 
out in the field, is that there is insufficient enforcement and 
there isn't a mind-set at the Federal level to try to inject 
the Federal investment to close that gap. So how would you 
propose to speed this up?
    Mr. Pearson. I think, in your question, there is a very 
important question. And that is, what is gender equity, and how 
do we define it, and when do we know we are there? Is gender 
equity strictly proportionality? Then, perhaps, we will never 
achieve gender equity without eliminating almost all 
opportunities for males. Is gender equity fair treatment and no 
bias based on gender? Then I believe that we can achieve that.
    Chairman Hinojosa. Let me reclaim my time because it is 
running out. I want to say that, just as has been pointed out, 
that in the athletics, there is a huge gap. Ms. Layne has made 
it very clear that in engineering, and I can certainly testify 
for architects because I am married to one, women do not get 
the same investment in effort by Congress or by State 
legislators to be able to increase the numbers that get into 
that field into that career path, so that they, too, can be 
professionals, in examples as Ms. Layne gave, which was the 
STEM careers. So, with that, I am going to close and give an 
opportunity to my good friend and colleague, Mr. Keller, from 
Florida.
    Mr. Keller. Well, thank you, Mr. Chairman. And I have 
questions for several of our witnesses.
    Mr. Mowatt, let me begin by thanking you for your service 
on behalf of girls' softball teams. One of the things I learned 
from your testimony is that, beginning in the 2008 softball 
season, the school board is going to make sure that the girls 
have equal facilities in terms of dugouts, score boards and 
bleachers similar to the boys' baseball teams. Have you ever 
encountered a situation where you have a large high school and 
the boys' baseball team has lights on their facility for night 
games and the girls' softball field does not? And do you 
consider that common or an inequity that you feel needs to be 
addressed?
    Mr. Mowatt. Well, you are talking about lights on softball 
fields and baseball fields. I don't think there is a lighted 
field in Prince George's County for the girls' high school 
softball. Boys do have some baseball fields with lights on 
them. The girls don't have any. If they had some, they would 
probably have their parents out here at night watching the 
games. When they play all the games in the afternoon, it is 
tough for parents to get there. But softball fields with lights 
would be a plus.
    Mr. Keller. I notice you didn't mention the lighting in 
your comments, and I kind of heard feedback from some folks 
back in my hometown that they think lights should be there if 
the boys have them. But you didn't ask for the lights, but you 
think that would be a good idea as well?
    Mr. Mowatt. I think it would be a great idea, but money is 
the biggest root of all evil around here.
    Mr. Keller. Let me ask you about another part of your 
testimony. You said that National Women's Law Center hired this 
law firm and they pursued legal remedies against Prince 
George's County which resulted in a binding and negotiated 
agreement that said, according to your testimony, male and 
female athletes will receive equal amounts and equal quality of 
publicity, closed quote. And you think this agreement should be 
a role model for this country to follow. I am somewhat 
concerned that, despite your good intentions and heart, that 
that is somewhat unenforceable and unrealistic. And let me give 
you just one example. LaBron James, the star of the Cleveland 
Cavaliers, went to St. Vincent-St. Mary High School in Akron, 
Ohio. He was a three time All-American, led his team to three 
State championships. As a high school student, he appeared on 
the cover of Sports Illustrated with the headline, ``The Chosen 
One.'' now, I don't know who the star shortstop on the girls' 
softball team at the same St. Vincent-St. Mary High School is 
in Akron, but I know that she wasn't on the cover of Sports 
Illustrated. And so, by definition, there is no way that she 
received an equal amount or an equal quality of publicity as 
LaBron James. If this sort of binding agreement were to become 
a national model and into law, would that school district in 
Ohio be able to be sued for not providing an equal amount and 
equal quality of publicity to the female athletes, Mr. Mowatt?
    Mr. Mowatt. I personally don't think so, to tell you the 
truth. I think what you are looking for is equal opportunity 
for the male and the female.
    Ms. Greenberger. That is absolutely right. And in fact----
    Mr. Keller. Let me just--Ms. Greenberger I'll ask you a 
question when I am ready for you.
    Ms. Greenberger. Just so I could clarify?
    Mr. Keller. I'll give you a chance, but I have got some 
other things.
    You realize, Mr. Mowatt, because this is your testimony 
that I am asking you about, that a school can send out a press 
release saying, hey, we have a female shortstop and she has a 
600 batting advantage, and she is a three time all-State 
shortstop, and she has led her team to three national 
championships, but Sports Illustrated is not going to put that 
on the cover. It is their decision. We don't control the media. 
So my point is, that is a pretty hard thing to enforce, however 
good your intentions are.
    Mr. Mowatt. I think you are looking at something different 
here than with LaBron James and all that. What we are talking 
about is equal publicity for everybody for what they do. And 
I'll give you an example. Right here in this area, you have a 
women's professional softball team that played Team China last 
week and beat them three times, and you couldn't get anything 
in the paper.
    Mr. Keller. That's right. That's right. And I'll give you 
an example. We know that Michael Jordan is considered by most 
to be the best basketball player ever. There is a female that 
just retired, Shamika Holdsclaw considered the Michael Jordan 
of the WNBA, and she is not exactly a household name. But let 
me close.
    Ms. Greenberger, if you want to have a chance to follow up 
on what I asked, my time is expired after to.
    Ms. Greenberger. I think there was a misunderstanding that 
what the agreement went to is an effort on the part of the 
school and certainly not what happens with respect to the media 
and what they pick up on, because you are certainly right; what 
Sports Illustrated may choose to cover is not within the 
purview of the agreement. But what the school newspaper covers, 
the publicity that the school sends out, the notices that it 
sends out, just as you mentioned, with respect to a high school 
sending that information out, that is what the agreement was 
dealing with, not whether or not the private media actually 
picks it up. So I think we are actually--it is an agreement 
that, by your own question, I think you were reflecting, 
looking at what the school's efforts are, not what the private 
media responds to.
    Chairman Hinojosa. The gentleman's time has expired. And I 
would like to say that, ordinarily, I allow Members of Congress 
to speak in the order in which they arrived. But at this time, 
I want to exercise a point of privilege and call on the 
Congresswoman from Hawaii, Mazie Hirono, who is very special to 
this Title IX in that she went to the House floor yesterday and 
called to our attention the 35th anniversary of Title IX and 
the author of that legislation Patsy Mink, with whom we served 
here in Congress on this Education Committee, and I would like 
to call on her for her 5 minutes of questioning.
    Ms. Hirono. Thank you very much, Mr. Chairman, for holding 
this hearing; and I would like to thank all of the members of 
the panel for appearing.
    I think it is really important as we celebrate the 35th 
anniversary of Title IX that we bring out some of the remaining 
issues and challenges before us, and I note that the panelists 
focused on different aspects of Title IX, but one area that I 
am interested in----
    Before I proceed further, I would like to thank Mr. Mowatt 
for literally going to bat for the young women in your 
jurisdiction. It just goes to show that private citizens have a 
major role to play in the enforcement of Title IX. I thank you 
very much.
    I am interested in pursuing this idea of sending out 
surveys. I think, Ms. Greenberger, your testimony was cut short 
because your time ran out, and I think you were getting into 
this area.
    Dr. Simon, you indicated that you thought this was a good 
idea; and, in fact, I think that is what the DOE was 
contemplating doing, is sending out surveys as a way to 
determine whether there was real interest among, presumably, 
women in pursuing athletic opportunities.
    The concern I have here is that this kind of survey could 
merely confirm to a large extent the effects of socialization 
and discrimination and the attitudes and notions that young 
women may have as far as the opportunities for them in 
athletics; and, therefore, the survey, as I said, would reflect 
socialization and culturalization, as opposed to a true 
understanding of the potential for them under Title IX.
    Ms. Greenberger, if you would like to react or respond to 
my concern about a survey.
    Ms. Simon. And may I respond afterwards?
    Ms. Greenberger. As is always the case, the devil is in the 
details of what kind of survey we might be talking about and 
then what use those surveys are put to and whether they are 
misinterpreted.
    The Office for Civil Rights in this clarification that they 
issued said that--and this is for the first time--at the 
collegiate level, not the high school level as Ms. Simon was 
recommending, that schools be allowed to send out e-mails to 
students. A notoriously unreliable way of expecting to get 
feedback, of course, is sending out e-mails to students or to 
virtually anybody and then to determine what their interest is 
in playing and then the lack of response. This is the most 
outlandish part of the whole proposal, the lack of response 
that schools would be allowed to interpret as a lack of 
interest, and they would not have to look at another thing. So 
it is a way of eliminating schools' obligations to take a 
serious look to see what is the real interest of young women in 
playing sports on their campuses.
    I have to say that, to the credit of the NCAA, they urged 
all of their member institutions not to follow that and to take 
advantage of that enormous loophole that the Office for Civil 
Rights was creating because it was, on its face, so 
irresponsible to tell schools that an e-mail is enough and that 
a lack of response equates a lack of interest.
    I wanted to just make one other quick point, if I could, 
and that has to go to the interrelationship between all of the 
different forms of discrimination that we have been talking 
about. I was glad to hear Mr. Pearson say that he could 
understand the kinds of problems with those fields in Prince 
George's County; and if you had seen the photographs that Mr. 
Mowatt took, you would be pretty taken aback at the quality of 
the fields.
    Well, once those fields were improved, not only did we have 
a safer situation for those young girls in Prince George's 
County, but it will not surprise you to know that we have seen 
a dramatic increase in the number of girls interested in 
playing. So the interest of girls is there if they are given a 
safe opportunity to play, as Mr. Mowatt said, if they are given 
publicity so they know the opportunities are there to play.
    Ms. Hirono. Before I go to you, Dr. Simon, is this a rule 
that was--or this proposal, is that in place already, to allow 
schools to take this kind of e-mail survey, and is there 
anything we can do? Those of us who have a concern about the 
lack of scientific, really, basis for that kind of survey being 
the deciding factor, is there something we can do to stop this?
    Ms. Greenberger. Yes. Well, the Office for Civil Rights 
issued it as a final interpretation without notice, without 
comment on, as I said, a late Friday afternoon and in the 
spring when many schools were on break. So we have asked the 
Office--we have called on Congress to do several things: first 
of all, to ask the Office for Civil Rights to explain itself on 
how it could possibly justify this kind of interpretation. 
Secondly, Congress should be directing the Office for Civil 
Rights, and it has a variety of tools at its disposal to do 
that, not to be using that clarification as a justification in 
the way that it enforces Title IX. We think it does a 
disservice to schools because it would never be held up in a 
court.
    Ms. Hirono. Thank you.
    Mr. Chairman, is my time up?
    Chairman Hinojosa. Yes, it is.
    Ms. Hirono. I am sorry we could not get to you. Perhaps 
someone else could offer you the opportunity to respond, Dr. 
Simon.
    Thank you.
    Chairman Hinojosa. Thank you.
    I would like to now call on the gentleman from Virginia, 
Congressman Robert Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Greenberger, I wanted to follow up on that same issue.
    In your response, you attack the notoriously unreliable 
aspect of sending out these e-mails. You did not respond to the 
idea that you may be perpetuating stereotypes. I am sure if you 
sent out an e-mail on STEM science, technology, engineering, 
mathematics that you would have a gross disparity between boys 
and girls which, by virtue of an accurate sample, would suggest 
that these colleges do not have to comply.
    Can you say a little bit about the perpetuation of the 
stereotype part of the question?
    Ms. Greenberger. Yes. Congressman Scott, that is very true. 
There are many ways of criticizing this clarification beyond 
what I got to, and that is a key way.
    Surveying the students in the schools themselves, just the 
college survey and looking at nothing else, courts have held to 
be inappropriate even if they had used a better mechanism than 
this e-mail mechanism for several reasons.
    First of all, if a school, a college or a university does 
not offer a particular team for young women, many of the most 
serious high school athletes will not come to that school to 
play because it does not have the team to offer. So they have 
already screened out many of the most likely players for 
particular teams if all they do is survey the students who are 
currently at the school and do not look at the teams offered in 
high schools around the area that might be the recruiting area 
for the university or for the college or if they do not look at 
what the teams are at other universities or colleges and the 
like. So it certainly perpetuates the discrimination and the 
stereotyping that the school, itself, created.
    One other very quick note: There are close to 3 million 
high school girls playing sports today and not quite 170,000 
opportunities for young women to play at colleges and at 
universities. So the notion that there are not enough to have 
that expanded equal opportunity, on its face, is pretty 
bizarre.
    Mr. Scott. Thank you.
    Does your organization have a brief on the constitutional 
issue of Title IX that equal protection requires a compelling 
State interest and the remedy being narrowly tailored? Have you 
briefed those issues?
    Ms. Greenberger. We have; and there have been a number of 
challenges, some brought by Mr. Pearson's organization and some 
others, arguing that Title IX, in making lots of different 
arguments, is unconstitutional and the like. And every Court of 
Appeals to consider it--and there have been, I think, about 
eight of them--uniformly have upheld the legality of Title IX, 
the constitutionality of Title IX, the appropriateness of Title 
IX, and we have participated and briefed in many of those 
cases.
    Mr. Scott. If you could provide that briefing to the 
committee, I would appreciate it.
    Ms. Greenberger. We would be happy to.
    Mr. Scott. Now, another question, Ms. Greenberger:
    Title IX exempts military institutions. I note several of 
the military institutions have been sued presumably in the 
other laws. Are the other laws sufficient to prohibit the 
discrimination that women could find in military institutions 
without eliminating the exemption?
    Ms. Greenberger. Well, it is an interesting question.
    Title IX has some exceptions to it, especially in the area 
of admissions and in other areas as well, as you point out. 
When we are dealing with a governmental entity like a U.S. 
military academy, the Constitution does--of course, we cannot 
exempt from the constitutional requirements, so those still 
pertain, and there are other protections in military academies, 
but they do not have the enforcement mechanism of Title IX and 
the like.
    During the Clinton administration, actually, the Defense 
Department schools were not covered by Title IX or by Title VI; 
and during the Clinton administration, at the 25th anniversary 
of Title IX, President Clinton issued an executive order to 
cover for Title VI and Title IX purposes the Defense Department 
schools, which is, of course, the largest school district in 
the world. The Virginia Military Institute and the Citadel, 
which are private--well, they are State-run institutions--were 
actually sued under the Constitution because they were 
excluding women, and Title IX did not cover them. So Title IX 
does not have the full reach that, ideally, it might.
    Mr. Scott. To get into compliance, we have heard great 
theater about some male programs being cut.
    How many schools got into compliance by increasing 
opportunities for women?
    Ms. Greenberger. Well, the General Accounting Office did a 
study several years ago, and I think they found that over 70 
percent of schools had expanded opportunities in order to come 
into compliance with Title IX, so the great majority did not 
cut any men's sports. The General Accounting Office study, we 
understand, is under way now to update that study, and its 
conclusions should be made public soon, but I do want to say a 
couple quick things.
    When JMU dropped sports, as Mr. Pearson said, he did not 
mention that they also dropped women's teams as well as men's 
teams. Clearly, Title IX does not require that any one 
particular team must be kept in perpetuity. Schools have 
flexibility to add and to subtract teams. In fact, what studies 
have shown is that men's baseball, men's Lacrosse, men's soccer 
and, it will not surprise you to know, men's football have 
shown dramatic increases over the years. Unfortunately, it is 
true that men's wrestling has been dropped by schools, but the 
biggest drop actually took place during a period when Title IX, 
for a variety of reasons before Congress passed the Civil 
Rights Restoration Act, did not even apply to intercollegiate 
athletics.
    Mr. Scott. I want to pose another question for which I 
probably do not have time to get an answer, and that is whether 
or not there are issues in elementary and secondary education 
that we ought to be looking at in terms of No Child Left 
Behind. If any of the members of the committee would respond 
after the hearing, I would appreciate it, because we are going 
to be redoing not only the Higher Education Act but also No 
Child Left Behind.
    Thank you, Mr. Chairman.
    Chairman Hinojosa. Thank you. Thank you, Mr. Scott.
    I am now going to go to the other side of the aisle and 
call on Congressman Timothy Walberg from Michigan.
    Mr. Walberg. Thank you, Mr. Chairman. Sorry for being late 
and sorry for leaving early, but I have to go have lunch with 
the Detroit Tigers, so it kind of fits here, huh?
    Mr. Pearson, you have stated that, while your organization 
supports the spirit of Title IX, you find the law's regulatory 
mechanisms, the three-pronged test and specifically 
proportionality as an inappropriate way of measuring 
compliance. How then does the College Sports Council suggest 
that the Department of Education manage and regulate compliance 
with the law?
    Mr. Pearson. Well, first of all, we support Title IX and 
the good that it has done in specific areas of providing access 
to facilities. It is very important that the female athletes 
and the male athletes are able to get access to facilities in a 
fair and unbiased way. The access to facilities, the funding 
for teams, the access to locker rooms, things like that are 
extremely important, and it does make a difference, and I 
believe that is the main way that Title IX has really helped 
female athletes.
    Let us go back to what Title IX is. It is a law that says 
discrimination based on gender is illegal, all discrimination 
based on gender. So how do we measure that discrimination, and 
are we going to allow discrimination against one gender like 
male athletes? Is that permitted in Title IX? There has not 
been much discussion about the gender disparity overall in 
enrollment. I think that is something that we, as a society, 
are going to have to deal with, and we feel that athletics 
could be part of a fix to that wide gender disparity.
    To answer your question, in the end, what do we see as a 
solution? As I said in my testimony, we feel that the third 
prong, the three-part test, accounts for interest and 
abilities, and we feel that you should include male students in 
any measurements of interest and abilities, and that includes 
surveys. However you do them, they should be comprehensive, 
they should be ongoing, and I think Dr. Simon, who is an expert 
in that area, could comment as well.
    Thank you.
    Mr. Walberg. Dr. Simon, I would ask you to follow up on 
that then.
    Ms. Simon. Well, I was going to say that it seems to me 
that the surveys provide empirical data so we are not making 
policy on the basis of ideology. I would hope that we would 
also include empirical data when we make policy, and I want to 
say, in terms of response rate, there was criticism about what 
would be the response rate of surveys. The surveys, as I 
suggest they be carried out, by sending them to high schools at 
the beginning of the academic year and distributing them to 
seniors--the questionnaires would be filled out in the 
classroom so that, in terms of a response rate, it would be 
almost a 100 percent response rate that we would be getting 
from the high school seniors who receive the questionnaire; 
and, therefore, that would be a reasonably good basis for 
suggesting public policies.
    Mr. Walberg. Okay. Thank you.
    I would yield to my ranking member, Mr. Keller.
    Mr. Keller. Well, thank you, Mr. Walberg.
    Back to you, Dr. Simon. I know that Ms. Greenberger and Ms. 
Hirono were questioning you a little bit about the surveys. You 
just had a chance to respond a little bit to the response rate 
issue and how you would address that. Is there anything----
    Ms. Simon. Which is very important.
    Mr. Keller. Is there anything else you would like to 
respond to, based on the questioning of this survey system as 
someone who has actually served on this Title IX Commission?
    Ms. Simon. Well, one of the other things that, of course, 
the survey would do is it could arouse curiosity and interest 
on the part of, perhaps, some of the recipients as to, gee, 
maybe it would be fun to participate in collegiate sports--it 
could be--and it may be more high school girls than boys who 
had not considered it, but getting a survey and asking them 
these questions might say it might be fun to run track or it 
might be fun to try out for the tennis team or something like 
that. So the surveys could also stimulate interest in it as 
well as provide data.
    Mr. Keller. Could the surveys also have a benefit by being 
applied to areas outside of athletics such as careers in math 
and science?
    Ms. Simon. It could be.
    Mr. Keller. Okay. What about your service on that 
commission led you to feel so strongly about this data 
collection issue?
    Ms. Simon. I will start out by telling you, as a 
sociologist, I am always interested in data. Of the 55 books 
that I have written, all of them are empirical monographs in 
which I address issues of public policy like immigration or 
women in crime, et cetera, by looking at data. So I came on to 
the Commission being concerned with ``What do we know?''
    Mr. Keller. Your Ph.D. is from?
    Ms. Simon. The University of Chicago.
    Mr. Keller. Which I know, as a sociology minor, that is 
considered, I would say, the Harvard of sociology but even 
higher than Harvard, actually, in the field of sociology.
    Ms. Simon. Right, we always felt that way.
    Mr. Keller. Absolutely. Well, thank you.
    Ms. Simon. I also taught at the University of Chicago.
    Mr. Keller. You bet. Folks who could not get into my alma 
mater at East Tennessee State had no choice but to go to 
Harvard or to the University of Chicago. I am just teasing.
    Thank you for your testimony, all of you.
    I yield back the balance of my time.
    Chairman Hinojosa. Thank you.
    Now I would like to call on the gentleman from 
Massachusetts, Congressman John Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    I will tell the ranking member that it is similar in my 
State. People who could not quite get into Salem State College 
ended up going to Harvard.
    I just think it is appropriate, Mr. Chairman--you and I 
both had an opportunity to serve with Patsy Takemoto Mink, and 
it is appropriate to be talking about a bill that she authored 
and did such a great job on. She was such a tremendous Member. 
Congresswoman Hirono is certainly doing a great job in 
following in that seat.
    Ms. Layne, you mentioned earlier the barriers to women in 
STEM courses in some of the higher education institutions. 
Would you talk a little bit about what some of those barriers 
are and what we might do to deal with them?
    Ms. Layne. Well, there are barriers along the entire 
pathway of interest in and pursuit of STEM careers. Many of 
them are highlighted in the National Academies' report, as I 
mentioned, so I would refer you and your staffers to that for 
details, but they include teachers and guidance counselors at 
the K through 12 levels who continue to discourage girls from 
pursuing math- and science-related careers to the atmosphere 
and the teaching methods used in college classrooms that in 
many cases do not appeal to girls in the same way that they 
appeal to boys, even to the level of the kinds of examples used 
in college classrooms that are areas that are typically of more 
interest to boys than to girls.
    My particular focus in my current position is on faculty 
careers, and we have done a lot of work in trying to revise 
university policies that allow women faculty to have the same 
kinds of opportunities to reach their fullest potential as the 
male faculty. A particular problem for women in tenure-track 
position is the timing of the tenure decision for young 
faculty, which often coincides with the prime child-bearing 
years, so women are put in the position of trying to either 
postpone having children until after they have achieved tenure 
or in trying to balance establishing their research and 
academic careers at the same time that they are raising young 
children. So all of those issues are described in more detail 
in the National Academies' report.
    Mr. Tierney. Thank you.
    Ms. Maatz, would you care to respond to Mr. Pearson's 
discussion on proportionality? We have not heard as much from 
you as perhaps we should have on that.
    Ms. Maatz. Thank you, Congressman.
    Well, first of all, I think part of what we are talking 
about here is that the survey that Ms. Simon is talking about 
is not what the Office of Civil Rights is proposing. That is 
the first thing to make clear. It is basically civil rights 
enforcement through spam in terms of what the Office of Civil 
Rights has proposed. Part of what they are trying to do, which 
I think is fundamentally problematic, is they are requiring 
that girls and women prove their interest in sports, which in 
many ways is completely contrary in terms of perpetuating the 
various stereotypes that Title IX was actually implemented to 
address. So, in some ways, we are actually, I think, going a 
step backwards in terms of what they are proposing.
    In terms of proportionality, the thing that is really clear 
that I think the committee needs to know is that there are 
three prongs. Any school can use any one of those prongs. Each 
one of those prongs is equal to the other in terms of being 
able to satisfy compliance with Title IX; and, in fact, the 
vast majority of schools use prongs two and three. So part of 
what we are talking about here, I think, in some ways is, you 
know, chasing an argument.
    The reality is that girls and women are still 
underrepresented in sports. There are still the stereotypes out 
there, as Mr. Mowatt has talked about, in terms of how we 
provide services for them; and I think that that is critically 
important.
    If I may make one other point in terms of the STEM fields 
as to what my other colleague was just talking about, this is 
also an area where we need to consider the sexual harassment 
issue. Because we do know that, in terms of the pipeline for 
women and girls interested in STEM fields, sexual harassment is 
actually one of the reasons that they jump out.
    So that is one thing that we can do in terms of improving 
the climate on campuses and in schools for girls and women who 
are interested in going into those fields. As we all know, we 
need more--we need more women, we need more men going into 
those fields, because that is the engine of the 21st century 
economy. It is important for homeland security, and it is 
really a high-end job as well.
    Mr. Tierney. Thank you.
    Let me just end with one general question. Intramural 
sports. We have talked a lot about collegiate sports, but are 
the opportunities for students on intramural aspects where we 
want them to be or is there work to be done in that area as 
well?
    Ms. Greenberger, you are nodding your head.
    Ms. Greenberger. Well, I think certainly in all areas of 
sports and at every level there is room for improvement, and I 
have to say a couple of things on that front.
    First of all, the proportionality is also discussed at a 
collegiate level, but those standards and principles apply at a 
high school level and below, too. So to the extent that this is 
being challenged and attacked, it is really going down to the 
younger levels and our public schools' obligation to give broad 
opportunities to young girls growing up so that they can see 
for themselves the life-long benefits of sports.
    And that gets me to your point about intramural sports, 
club sports, physical activity in general. As we know, they are 
not being provided to people to the degree it should, male or 
female, and certainly at younger ages, too, with very 
devastating, life-long adverse health consequences.
    So as to the whole notion of encouraging physical 
participation, whether in the more elite intercollegiate of 
teams or intramural sports or club teams or lower-level 
participation in sports, all of that, there is a lot of room 
for improvement.
    Mr. Tierney. Thank you very much.
    Thank you very much, Mr. Chairman. I yield back.
    Chairman Hinojosa. The gentleman yields back.
    Now I would like to ask unanimous consent that the 
statement--Joyce M. Roche, the President and CEO of Girls, 
Incorporated, has presented me with a statement; and I ask 
unanimous consent that it be allowed into the permanent record.
    Hearing none, so be it.
    [The statement of Ms. Roche follows:]

    Prepared Statement of Joyce M. Roche, President and CEO, Girls 
                              Incorporated

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to submit this testimony on the occasion of the 35th 
anniversary of Title IX of the Education Amendments of 1972. My name is 
Joyce Roche, and I am the President and CEO of Girls Incorporated, the 
national non-profit youth organization that inspires all girls to be 
strong, smart, and bold. On behalf of Girls Inc., our 78 local 
affiliates, and the girls that we serve, I want to share with you the 
necessity for continued support for this critical law.
    Girls Incorporated has been a supporter of Title IX since its 
inception and has seen the vast benefits that the legislation has 
provided not only for girls and women, but for society as a whole. We 
believe that strong enforcement of the law is key to continue to move 
our country forward. We believe in the integrity of the law and want to 
be sure that there will be no changes to it. We recognize that although 
it has done great work thus far, there is still work to be done.
    The focus of my testimony today is the impact of Title IX on 
science, technology, engineering, and math (STEM), disciplines that we 
as an organization have focused on for over 20 years. We know that 
Title IX has increased the opportunities for girls and women in STEM, 
and yet that barriers persist. With continued enforcement of Title IX, 
these barriers can be overcome, gaps between boys and girls closed, and 
the full participation of girls and women in STEM achieved. This will 
be to the benefit of both our nation's security and competitiveness.
    Title IX has unquestionably increased the number and performance of 
girls and women in STEM courses and disciplines.
    Before Title IX, educators, misled by stereotypes that girls could 
not achieve in STEM subjects or careers too often steered high school 
girls away from higher-level math and science classes, and frequently 
excluded them from extracurricular activities such as science and math 
clubs. Not surprisingly, girls' achievement in STEM lagged behind boys' 
through much of the last century.
    Today that picture has changed dramatically. With the support and 
implementation of Title IX over the past 35 years, the 2005 NAEP math 
and science assessments for grades 4, 8, and 12, showed a gap no bigger 
than 4 points.\i\ Girls now comprise 48% of AP test takers in calculus 
AB, 47% in chemistry, and 58% in biology. And, in 2007, half of the 40 
finalists in the Intel Science Talent Search were girls.\ii\
    Women at the university level have also increased their presence in 
STEM. In 1970, women earned 17.5% of bachelor's degrees in natural 
sciences and engineering. By 2004, they earned 38.4%, and women are now 
over-represented in biological and agricultural sciences. In the same 
timeframe, women's share of doctorate degrees in these fields more than 
quadrupled from 6.7% to 30.5%.\iii\
    Title IX has helped to overcome stale stereotypes and the exclusion 
of girls and women from the STEM industry. Women and girls have proven 
that they have both the capacity and drive to succeed in these vital 
fields.
    In spite of this remarkable progress, substantial gaps remain, and 
discrimination persists.
    The barriers to girls' and women's progress in STEM begin in K-12 
education, where messages that are received in schools tend to have 
lasting consequences. In a 2006 Girls Inc. survey conducted by Harris 
Interactive, 44% of girls and 38% of boys agreed with the statement, 
``the smartest girls in my school are not popular,'' and 17% of girls 
and 14% of boys thought it was true that ``teachers think it is not 
important for girls to be good at math.'' \iv\ The overall pattern has 
changed little since a similar survey conducted in 2000, suggesting 
that these stereotypes are difficult to eradicate.
    These pervasive attitudes and messages influence girls' academic 
paths, and future options in STEM may be curtailed by an insufficient 
course foundation early on. The Chronicle of Higher Education cites an 
anecdote of a girl who was one of two girls in her high-school 
programming courses, where the boys in the classes repeatedly told her 
that she was not good at programming and out of place. ``One of guys I 
grew up with and was in all of the classes with told me that, 
scientifically, girls were not programmed to do math like guys could,'' 
she said. ``And I believed him.'' \v\ According to psychologists, girls 
and women are more likely to internalize criticism and biased comments 
like this one.
    Indeed, girls continue to lag behind boys in computer science and 
physics, comprising only 31% of physics AP test takers in 2006 and just 
16% in computer science. Of college-bound seniors in 2005, young women 
comprised just 13% of those intending to major in computer science, 15% 
of those intending to major in engineering, and 40% of those intending 
to major in math.
    At the university level, women continue to be under-represented in 
engineering and the physical sciences. Even though women make up 60% of 
the undergraduate college population, they earn only 20% of all 
bachelor's degrees granted in engineering and physics, and a decreasing 
share of bachelor's degrees in mathematics and computer science.\vi\
    Evidence of sex discrimination in academia--in areas such as 
compensation, access to grants, leave policies, and laboratory space--
is compelling, even though the discrimination may not be intentional. A 
professor of molecular biology at the Massachusetts Institute of 
Technology (MIT), Nancy Hopkins said that she entered science 
``convinced that civil rights laws had eliminated gender discrimination 
from the workplace.'' \vii\ It was not until she asked for, and was 
denied, an extra 200 square feet of lab space that she started to 
recognize the persistent, though not overt, discrimination. When her 
request was denied, she got down on her hands and knees with a tape 
measure to see just how much smaller her lab space was when compared to 
her male counterparts. She learned that she in fact had 1,500 fewer 
square feet.\viii\ After that, she started talking to other female 
faculty, and found that there existed several relatively minor areas 
where they were being shortchanged, which amounted to a large 
difference in the end. Institutions are beginning to address structural 
barriers and outdated attitudes that persist in the academy, but women 
scientists consistently report we have far to go.
    Girls Inc. believes that Congress has a vital role to play in 
fulfilling the promise of Title IX in the STEM fields.
    According to the report of the Commission on the Advancement of 
Women and Minorities in Science, Engineering and Technology, there are 
four points in life at which girls and women seem to lose interest in 
STEM: as they enter middle school, late high school, college and 
graduate school, and finally in their professional life.\ix\ Because 
Girls Inc. specializes in girls, our recommendations focus on grades K-
12:
    <bullet> Adequately fund the Office for Civil Rights in the U.S. 
Department of Education so that this office can be proactive in 
monitoring compliance with Title IX in this area. This includes 
providing technical assistance to schools concerning their obligations 
under Title IX, and enforcing existing requirements for Title IX 
compliance officers in every building. Students, parents, and faculty 
should be informed of their rights under Title IX, the compliance 
officer's name and contact information, and OCR must promptly and 
thoroughly investigate any discrimination complaints.
    <bullet> Promote informal STEM education through federally-funded 
afterschool programs. For more than 20 years, Girls Inc. has offered a 
research-based afterschool program to inspire and nurture girls' 
interest in STEM from an early age. Girls Inc. Operation SMART and 
other programs like it have the capacity to be more flexible, creative, 
and hands-on than school day classes, and feature female role models 
and field trips that increase girls' confidence and competence in 
science and math. Proven, national programs like ours incorporate the 
latest research on girls' engagement and persistence in STEM and can 
and should be partners with schools in addressing the under 
representation of girls and minorities in STEM.
    <bullet> Enlist classroom teachers and administrators as partners 
in promoting STEM to girls. Provide professional development 
opportunities to teach gender-fair teaching methods and to help them 
foster learning environments (including classrooms and computer rooms) 
free of harassment.
    We look forward to the opportunity to work with you on these and 
other recommendations. With the continued support of Title IX, girls 
and women can overcome the barriers standing in their way to be 
successful in STEM.
    Girls Incorporated(r) is a national nonprofit organization that 
inspires all girls to be strong, smart, and boldSM. With local roots 
dating to 1864 and national status since 1945, Girls Inc. has responded 
to the changing needs of girls and their communities through research-
based programs and advocacy that empower girls to reach their full 
potential and to understand, value, and assert their rights. Programs 
focus on science, math, and technology, health and sexuality, financial 
literacy, sports, leadership and advocacy, and media literacy for girls 
ages 6 to 18 throughout the United States and in Canada.
                                endnotes
    \i\ ``2005 Assessment Results, The Nation's Report Card,'' U.S. 
Department of Education, National Center for Education Statistics. 
http://nces.ed.gov/nationsreportcard/nrc/reading--math--2005
    \ii\ ``66th Annual Intel Science Talent Search (2006-2007) 
Finalists,'' Science Service, Jan 2007. http://www.sciserv.org/sts/
66sts/finalists.asp
    \iii\ ``Four Decades of STEM Degrees, 1966-2004: The Devil is in 
the Details. STEM Workforce Data Project: Report No. 6,'' Commission on 
Professionals in Science and Technology. 10.
    \iv\ Girls Incorporated. The Supergirl Dilemma: Girls Grapple with 
the Mounting Pressure of Expectations, Summary Findings. Harris 
Interactive. Oct 2006: 22.
    \v\ Carlson, Scott. ``Wanted: Female Computer-Science Students: 
Colleges work to attract and support women in technology majors,'' The 
Chronicle of Higher Education. 13 Jan 2006. http://chronicle.com/temp/
email2.php?id=yjmCGg4WqYrYkDvzzjgxgQRgyWCxjrkH
    \vi\ National Science Foundation, Division of Science Resources 
Statistics (2004). Women, Minorities, and Persons with Disabilities in 
Science and Engineering: 2004. (NSF 04-317).
    \vii\ Hopkins, Nancy. ``Academic Responsibility and Gender Bias,'' 
MIT Faculty Newsletter 17.4 (Mar/Apr 2005) 22.
    \viii\ Rimer, Sarah, ``For Women in Sciences, Slow Progress in 
Academia,'' New York Times. 15 Apr 2005. http://www.nytimes.com/2005/
04/15/education/15women.html?ex=1181966400& en=ccacb449228792b3&ei=5070
    \ix\ ``Land of Plenty: Diversity as America's Competitive Edge in 
Science, Engineering, and Technology.'' September 2000. http://
www.nsf.gov/pubs/2000/cawmset0409/cawmset--0409.pdf
                                 ______
                                 
    Chairman Hinojosa. I am now pleased to call on the 
gentleman from the great State of New York, Congressman Timothy 
Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. Thank you very much 
for holding this hearing.
    I want to go back to the issue that Ms. Maatz just spoke 
about and put a question to Mr. Pearson.
    Proportionality is one of only three prongs that a school 
must satisfy in order to be in Title IX compliance. The whole 
focus of both your written testimony and your testimony this 
morning has been on the issue of proportionality. So if a 
school is resorting to proportionality in order to qualify or 
to satisfy Title IX obligations, as I understand it, they are 
either implicitly or explicitly acknowledging that they have 
failed the test on the other two, that they cannot point to 
program expansion that is responsive to the interests and 
abilities of the underrepresented sex nor can they say that 
they have fully accommodated the interests or abilities of the 
underrepresented sex.
    So if we have a school that is acknowledging their 
deficiencies in those two areas, why is it that we should cut 
them some slack on proportionality, and how does cutting them 
some slack on proportionality advance the general interests of 
that school?
    Mr. Pearson. Congressman, going back to the three-part 
test--and you have heard that there are three ways to comply.
    Mr. Bishop. Right.
    Mr. Pearson. One is proportionality. One is really just a 
step towards proportionality. It is a measurement of whether or 
not they have added a team for females in the last 5 years. The 
third is measuring interest and abilities, demonstrating that 
you have met the interest and abilities, and that prong has 
never held up in court. Brown University tried to demonstrate 
that they had measured the interest of their student athletes, 
and it did not hold up in court.
    So what happens is there is a migration towards 
proportionality as the safe way to comply, this safe harbor, 
and that is why we have advocated ways for schools to have a 
concrete way to measure interest and abilities so they can feel 
safe with that prong, because a lot of pressure comes from 
interest groups threatening lawsuits.
    So as far as cutting them slack on proportionality, is 
that----
    Mr. Bishop. Well, let me try a different approach. Let us 
forget interests and abilities and accommodations. A school 
would have to acknowledge that they have not been responsive to 
the interests and abilities of the underrepresented sex if they 
are, in effect, foregoing prong two and going to 
proportionality, right? So they would have to acknowledge they 
have been unresponsive. Now why is it not in the school's 
interest to be responsive?
    Here is, I guess, the thrust of my question. College 
participation rates--college-going rates among women have 
increased. Are we aware of any data, either empirical data or 
impressionistic data, that says that part of that increase in 
college-going rates on the part of females is that they now 
have more access to intercollegiate activities and that they 
have greater ability to satisfy their interests in college?
    I guess where I am going with this is, if Virginia Tech had 
a sudden increase in the students who accepted their offers of 
admission in math, I would assume that Virginia Tech would have 
offered additional sections of entry level math courses for 
freshman year to accommodate that interest, correct? Okay.
    So why is it that we ought not to be encouraging schools to 
meet the expectation levels of those students, and why is it 
not in a school's interest? Schools are going to build 
enrollment if, in fact, they are satisfying the interests of 
their students.
    Mr. Pearson. Well, it can go the other way as well.
    If you are saying you want to increase enrollment, part of 
my presentation was about increasing enrollment on the male 
side. We have got a serious problem with the disparity in 
enrollment between males and females; and when you apply 
proportionality, it is going to exacerbate that disparity. 
Proportionality does not help female athletes as well. There 
are many sports teams at JMU--Marcia Greenberger mentioned JMU 
dropped three women's teams, and we are seeing an alarming 
trend of dropping small roster women's teams as well because 
schools are just counting numbers. It is easier for them to 
have walk-on athletes join a rowing team and have 100 athletes 
come out than to have these gymnasts who have practiced all of 
their lives but where there are only seven people on their 
roster or ten people on their roster. Tennis teams are being 
dropped. At JMU, it was also an archery team and a fencing 
team. So proportionality, from our experience, is not serving 
women well.
    What is serving women well when it comes to Title IX is the 
equal access to facilities, the funding for teams, equivalent 
salaries. These things are very important.
    Proportionality has a track record of not working. Not only 
is it hurting men, but it is not helping women. When you cut a 
men's swimming team, you hurt the female athletes who are on 
the team because they train together, and it affects the 
culture of the whole team. That is happening across the board. 
You are seeing track teams--men's track teams--being dropped, 
men's swimming teams being dropped where they keep the women's 
teams, and it affects them because they train together.
    Mr. Bishop. My time has expired. Thank you, Mr. Chairman.
    Chairman Hinojosa. The gentleman yields back.
    Next, I would like to call on the gentlewoman, Susan Davis, 
the congresswoman from California.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    I apologize for having missed your presentations, and I 
have a good sense of what you were saying, but I wanted to go 
back to the issue of women pursuing higher degrees in the STEM 
area, the STEM degrees, and just if you could help, I guess, 
all of us understand.
    We have been talking a lot about how women can best 
compete, but it is really more the global competitiveness as 
well that we are concerned about. How much is that really 
impacting our ability to compete? Because we do not have women 
seeking higher degrees, higher STEM degrees, that means we do 
not have the faculty, that means we do not have the people, 
really, in front of young women. Beyond that, what do you think 
is really happening for the country as well in that area that 
we should be very aware of, or is this a big problem?
    Ms. Layne. Well, it certainly is a big problem.
    For many years now, the majority of Ph.D. degrees in 
engineering have gone to non-U.S. citizens. In many cases, 
those people have remained in this country and have contributed 
greatly to our economic competitiveness and innovation, but we 
are seeing that actually less and less.
    As some of the economies and as some of the countries that 
have been sending us their best and brightest students have 
become more productive, many more of these people are going 
back to their home countries. So we certainly would like to see 
more U.S. citizens pursuing careers in science and in 
engineering, underrepresented minorities as well as women. So 
there are many things that we can do to encourage more 
participation by U.S. citizens in those careers, and I think 
those would help men and women as well as the U.S. economy.
    Ms. Maatz. One of the things that I think would be 
interesting, there was a very well-covered report last year 
that came out called The Gathering Storm that talked about the 
fact that the United States is falling behind in terms of STEM 
education, in terms of people going into those fields and the 
repercussions it would have for competitiveness and for 
national security.
    One of the things, though, that was interesting, despite 
all of the enlightening facts in that particular report, was 
that they really overlooked women and minorities. The notion of 
if we actually could remove some of these barriers and if we 
could actually get women and minorities into the STEM fields in 
the numbers that they should be going into those fields, how 
does that then change the picture? Because I think if we had 
that information that would help us in terms of not only 
building some of the programs that we already have to move 
women and minorities into the STEM fields but to get the 
support we need to enlarge them for them to be successful.
    AUW has actually asked, together with several of our 
coalition partners, for there to be another report from the 
National Academies that actually looks at the whole idea of The 
Gathering Storm but filters in the whole notion of women and 
minorities. Because we think if you do that that that improves 
the picture; and then that obviously gives us the tools, 
hopefully, and the resolve to do some of the things that we 
need to do to get women and minorities into STEM fields.
    Ms. Greenberger. I think one of the things that is 
important in the context of Title IX is to realize that there 
has not been, as was said, the kind of attention to this area 
that there needs to be. There is a lot of public attention to 
athletics discrimination because it is hard to miss--it is so 
visible--but this is an area, the STEM area, where it is less 
visible and is much more subtle in the kind of barriers and 
discrimination that is still at play; and, therefore, we should 
really be making sure that enforcement agencies--the Department 
of Education, the Office for Civil Rights--should be looking at 
this area.
    As the General Accounting Office study had shown a couple 
of years ago, our other government agencies that have Title IX 
enforcement could be looking at Defense Department contractors 
and all kinds of other educational and training grounds that 
Title IX addresses to try to encourage this pool. And because 
the discrimination continues and builds upon itself from the 
lower grades to the higher grades, to faculty, to promotions, 
to tenure decisions, to research grants, all of that is a piece 
that needs to be addressed for the sake of the country as well 
as for individual women and for people of color. I think urging 
better Title IX enforcement is very important.
    Mrs. Davis of California. I guess I would ask, at those 
levels, as you have developed that, all the way up to the 
higher levels, if there is one place that we should focus as 
key in terms of legislation, perhaps, or oversight, where would 
that be? I mean, where do you think the biggest problem lies on 
that ladder of opportunity?
    Ms. Maatz. In terms of STEM fields particularly?
    Mrs. Davis of California. In terms of STEM fields 
particularly, yes.
    Ms. Maatz. Well, you know, it is interesting. Because there 
has been some great work done by groups like Girls, Inc. and 
Girl Scouts who have talked about how girls really face a 
barrier when they hit adolescence and the whole peer pressure 
that comes into play when they might have already developed an 
interest in STEM kinds of subjects, but then other things--
parental pressure, school pressure and teaching, you know, 
pedagogies as well as their peers--come into play and can 
really derail girls in their adolescence. I think that is 
certainly a place that we need to look at that would be 
particularly important.
    I would also, obviously, defer to Peggy.
    Chairman Hinojosa. The gentlelady's time has concluded, and 
I believe that everyone has had an opportunity to ask 
questions.
    I would like to make some concluding remarks and say that I 
have enjoyed listening to the witnesses and to the important 
information that you bring to us here in this 21st century.
    I was pleased to hear John Tierney say that he and I had 
the pleasure--and Bobby Scott--of serving with Patsy Mink, who 
had a real passion and commitment to opening doors of 
opportunity for girls and for young women in schools and in 
colleges. We followed her. We followed her lead. Look at what 
improvements have been made.
    I want to----
    Mr. Scott. Mr. Chairman.
    Chairman Hinojosa. Yes. I recognize Congressman Scott.
    Mr. Scott. Mr. Chairman, apparently, you are not going to 
have a second round of questions, but I did have one question 
that I had mentioned. That is, what issues may affect 
elementary and secondary?
    I would also like to pose another question for them to 
answer, if they would please; and that is, when you have 
programs, STEM programs, to encourage women to get into the 
STEM fields, do those programs actually work? Do girls actually 
get into those fields? If you could provide some success 
stories, we would appreciate it. What can we do to actually 
accomplish that goal?
    Thank you, Mr. Chairman.
    Chairman Hinojosa. All witnesses are allowed to give 
answers to the questions that Congressman Scott asked. I know 
that all of the other committees are meeting, and some are 
members of those committees, so I have to respect their time 
also to be able to get to those committees.
    I will say that it has certainly made me realize that--of 
my five children, four are daughters and one is a young man. My 
two older daughters are teachers, and they were rooting for 
this hearing because they said that they had not been recruited 
to play sports and that they wish now that somebody had at 
least recognized that they could have been college players. 
Whereas, of my two youngest who are now in school, one is a 
soccer and track star and the other is a basketball and 
softball star because the older sisters, who are young 
teachers, have stimulated their interest and told them they 
could do it. And, sure enough, both of them have straight A's 
in their academic work and are also beginning to be recognized 
in that they have taken and have kicked the ball and have shot 
the basketball and have done those kinds of things. So they are 
very proud of themselves.
    So, with that, I want to say that, as previously ordered, 
members will have 14 days to submit additional materials for 
the hearing record. Any member who wishes to submit follow-up 
questions, as did Congressman Scott, in writing to the 
witnesses should coordinate with majority staff within the 
requisite time.
    Without objection, this hearing is adjourned. Thank you.

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman, for holding this hearing on Title IX's 35 
years of success.
    I would like to take this opportunity to recognize my colleague, 
Representative Mazie Hirono for her work on celebrating the 
accomplishments of Title IX. Just yesterday, the House passed H.Res. 
406, a resolution introduced by Representative Hirono and of which I am 
a cosponsor. Representative Hirono, I commend you for your leadership 
and thank you for all of your hard work on this important issue.
    Title IX has been remarkably successful in providing new 
opportunities for women and girls. Nowhere has the impact of Title IX 
been greater than in female athletics. In 1972, the year Congress 
passed Title IX, less than 300,000 girls competed in high school 
athletics. In 2005, 2.95 million girls competed in high school 
athletics, an increase of approximately 900%.
    While these statistics demonstrate that Title IX has been an 
incredible success, it is important to remember that girls are still 
not offered all of the opportunities available to boys. This is why 
Title IX remains as relevant today as it was 35 years ago. I look 
forward to hearing how the successes that have been achieved by Title 
IX can be built upon so this nation can move closer to the ideal of 
providing equal opportunity to girls and boys.
    Mr. Chairman, thank you again, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    [Whereupon, at 11:49 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
